                             NATIONAL SCIENCE FOUNDATION
                                    4201 Wilson Boulevard
                                  ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM

Date:          March 31, 2011

To:            Mary F. Santonastasso, Director
               Division of Institution and Award Support

               Karen Tiplady, Director
               Division of Grants and Agreements

From:          Dr. Brett M. Baker /s/
               Assistant Inspector General for Audit

Subject:       Audit Report No. OIG-11-1-013
               Louisiana Board of Regents



Attached is the final audit report, prepared by Foxx & Company, an independent public
accounting firm, on the audit of NSF Award Numbers
                           awarded to the Louisiana Board of Regents (LBR). The audit covers
costs claimed for the four awards from May 15, 2004 to September 30, 2009, totaling
approximately $18.6 million in NSF funded costs claimed and $8.1 million in claimed cost share.

LBR was selected for an audit because of the high dollar value and number of NSF awards, the
collaborative nature of many of the awards, the significant issues identified in the results of NSF
OIG’s audit of LBR in 1998 and NSF’s monitoring site visit at LBR in 2004, and the material
internal control deficiencies reported in past Office of Management and Budget (OMB) Circular
A-133 audits.

Except for $1,884,950 (10% of total claimed costs) in questioned labor and fringe benefits,
subcontracts costs, material and supplies, and questioned cost sharing costs of $152,182, the
auditors determined that the costs claimed by LBR under NSF Award Numbers
                                                appear fairly stated and are allowable, allocable
and reasonable for the NSF awards. The auditor’s review of the previously identified audit
recommendations in the prior OIG’s audit of LBR, NSF’s monitoring site visit, and A-133 audits
revealed that most were adequately addressed. The auditors also noted three compliance and
internal control deficiencies in LBR’s, and two of LBR’s subawardees, (Louisiana State
University and Southern University) financial management practices that contributed to these
questioned costs and if not corrected, could impact current and future NSF awards. Specifically:

   •   Labor and related fringe benefits charged to NSF awards were not equitably allocated or
       adequately supported. Salaries and related fringe benefits claimed under NSF EPSCoR
       Award Nos.                                     did not reflect the actual work performed
       on these awards. The individuals that were charging the majority of their time to the
       EPSCoR awards were also working on other federal and state projects. Labor and related
       fringe benefits charged to NSF were based on the award budgets rather than actual effort
       expended. Furthermore, salaries and related fringe benefits were not charged to the two
       other on-going NSF Awards                                          even though 3 of the 6
       of the LBR employees were working on those two awards. In addition, LBR did not use
       the correct form of timekeeping documentation required by federal regulations for a state
       agency. This condition occurred because LBR’s effort and reporting system was
       erroneously based on guidance applicable to educational organizations rather than
       guidance applicable to state governments. As a result, there is no assurance that the LBR
       effort reporting system reliably reported actual effort expended on the NSF awards.
       Therefore, the auditors have questioned $1,305,283 of inequitably allocated or
       unsupported salaries and fringe benefits charged to NSF Award Nos.
       ($712,676) and                 ($592,607).
   •   Improvements are needed to LBR’s subaward monitoring program for NSF funded
       subawards to better represent the different LBR subawardee organizations. The four NSF
       awards in the scope of this audit had 60 first tier subawards to 36 different subawardee
       institutions that claimed $15 million of the $18 million in total costs charged to the
       awards. LBR’s subaward monitoring of NSF funded subawards concentrated on the
       largest dollars which were subawarded to LSU. Accordingly, there were a number of first
       tier NSF funded subawardees that never received an on-site monitoring visit by LBR’s
       Audit Division. As a result, problems could exist in the internal controls at other
       subawardees and could go unnoticed by LBR. The auditor’s tests revealed problems at
       Southern University which is one of LBR’s subawardees. The auditors also, noted an
       instance where a LSU/LBR second tier subawardee exceeded the budget without
       approval, although LBR’s monitoring review at LSU revealed no findings. Additional
       subawardee monitoring site visits would result in greater assurance that subaward costs
       claimed are allowable, reasonable and allocable to LBR’s current and future NSF awards.
   •   Southern University (SU) could not support a material amount of costs claimed under the
       LBR first tier subcontract under NSF Award No.                      SU could not provide
       adequate documentation supporting personnel costs, related fringe benefits, participant
       costs, and cost sharing claimed under the NSF award. Although SU had detailed
       procedures for maintaining records supporting costs incurred on sponsored programs, SU
       could not readily provide accounting documentation to support costs claimed. As a



                                               2
       result, $547,741 of direct and indirect costs and $152,182 of cost sharing has been
       questioned.

To address these compliance and internal control deficiencies, the auditors recommend that the
Director of NSF’s Division of Institution and Award Support (DIAS) address and resolve the
following recommendations made to LBR: (1) require the LBR to determine the labor charges
and related benefits charged to the NSF awards to reflect the actual costs in accordance with state
agency provisions, recover all personnel costs not applicable to NSF Award Nos.
and               1, and, review LBR’s revised effort reporting system to ensure that it complies
with the provisions of state agencies and will result in equitably distributed salaries and related
benefits; (2) consider performing on site monitoring visits of other NSF funded subawardees in
addition to LSU and, submit to the NSF the $17,696 of costs recovered from the University of
Illinois by LSU; and, (3) require Southern University to comply with its existing policies and
procedures to ensure that all claimed costs including cost sharing are supported with adequate
and sufficient supporting documentation; or, recover the $547,741 of questioned direct and
indirect costs claimed and return it to NSF. An additional recommendation was made to address
the additional unallowable costs identified during the audit. The auditors recommend that LBR
refund the $11,953 mistakenly charged to the NSF award, and determine and document a use for
the unused equipment that is consistent with the objectives of the EPSCoR award, or refund the
$2,277 to NSF.

During the course of the audit the auditor noted two issues that are not considered findings but
need to be addressed by LBR and NSF. The auditors determined that there was an excessive
slow burn rate under Award No.                    through September 30, 2009, the end of the
auditor’s audit period; and, LBR received $2,987 in advance more than the net award costs for
Award No.

LBR generally concurred with the recommendations and indicated it was taking corrective
actions to develop a time keeping system that is compliant with 2 CFR 225, expand their
subawardee monitoring program to include all NSF subawardees, and, provide a refund or credit
to NSF for funds inappropriately charged to NSF awards. Also, LBR agreed with some of the
questioned labor charges on the two NSF EPSCOR awards but did not agree with the questioned
costs from its 1st tier subawardee, Southern University. LBR’s response is included in its
entirely in Attachment A.

Please coordinate with our office during the six month resolution period, as specified by OMB
Circular A-50, to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that all recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing copies of this memorandum to the Division Director of Human Resource
Development (HRD) and the Directorate for Education & Human Resources (EHR) within the
Office of the Assistant Director. The responsibility for audit resolution rests with the Division of
Institution and Award Support, Cost Analysis and Audit Resolution Branch (CAAR).
Accordingly, we ask that no action be taken concerning the report’s findings without first
consulting CAAR at 703-292-8244.



                                                 3
OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed Foxx & Company’s approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with Foxx & Company and NSF officials, as necessary, to
          discuss audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by Foxx & Company to ensure compliance with
          Government Auditing Standards; and
      •   Coordinated issuance of the audit report.

Foxx & Company is responsible for the attached auditor’s report on LBR and the conclusions
expressed in the report. We do not express any opinion on the Schedules of Award Costs,
internal control, or conclusions on compliance with laws and regulations.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Jannifer Jenkins at 703-292-4996.

Attachment

cc:       James H. Lightbourne, Division Director, EHR/HRD
          Joan Ferrini-Mundy, Assistant Director, EHR/OAD




                                                4
     State of Louisiana Board of Regents

        Baton Rouge, Louisiana 70802

    NATIONAL SCIENCE FOUNDATION
     AWARD NUMBERS


FINANCIAL AUDIT OF FINANCIAL SCHEDULES
                      and
    INDEPENDENT AUDITORS’ REPORT
                     from
       May 15, 2004 to September 30, 2009




                             Foxx & Company
                             Certified Public Accountants
                             324 West Ninth Street, Suite 700
                             Cincinnati, Ohio 45202
EXECUTIVE SUMMARY

The National Science Foundation (NSF) Office of Inspector General (OIG) engaged Foxx and
Company to perform an audit on $18,597,179 in costs claimed and $8,163,470 in cost sharing
claimed as reported on the September 30, 2009 Federal Financial Report (FFR) and cost sharing
reports submitted to NSF by the Louisiana Board of Regents (LBR) for NSF Award Numbers
                                                                    The Louisiana Board of
Regents (LBR) is a state agency located in Baton Rouge, Louisiana. The LBR is the governing
body charged with the coordination and governance of state-wide education and research
development of all State public colleges and universities in Louisiana including 19 public
colleges, universities, and professional schools. As of March 2009, LBR had six awards from
NSF totaling over $23.7 million.

LBR was selected for an audit because of the high dollar value and number of NSF awards, the
collaborative nature of many of the awards, the significant issues identified in the results of NSF
OIG’s audit of LBR in 1998 and NSF’s monitoring site visit at LBR in 2004, and the material
internal control deficiencies reported in past Office of Management and Budget (OMB) Circular
A-133 audits.

The purpose of this audit was to determine whether the costs and cost share claimed by LBR and
its subawardees for these NSF awards appear fairly stated in the Schedules of Award Costs and
to identify weaknesses in LBR’s internal control over financial reporting that could have a direct
and material effect on LBR’s ability to properly administer, account for, and monitor its NSF
awards. In addition, we were to determine whether LBR adequately monitors its subawardees
and ensures that previously identified audit recommendations have been satisfactorily addressed
and implemented.

Except for $1,884,950 (10% of total claimed costs) in questioned labor and fringe benefits,
subcontracts costs, material and supplies, and questioned cost sharing costs of $152,182, we
determined that the costs claimed by LBR under NSF Award Numbers
                                             appear fairly stated and are allowable, allocable and
reasonable for the NSF awards. Specifically, we questioned labor and fringe benefit costs of
$1,305,283 claimed by LBR under the two EPSCoR Awards, (Award Nos.                               for
$712,676 and                    for $592,607) because the individuals that were charging the
majority of their time to the EPSCoR awards were working on other federal and state projects
and because LBR did not maintain the proper documentation to support salaries and related
benefits charged for staff working on multiple projects, as required. We also questioned $14,230
claimed by LBR for salary costs charged ($11,953) that were not related to the NSF awards and
equipment purchased ($2,277) under a NSF award but not used. In addition, we questioned
subaward costs of $547,741 and cost sharing of $152,182 claimed by Southern University (SU)
under Award No.                     because these costs and the cost share were not supported by
adequate documentation. Finally, we questioned $17,696 for a refund that LSU received from
the University of Illinois under Award No                      after we informed LSU, during the
survey phase of the audit, that the University of Illinois exceeded their labor budget by more than
20 percent without receiving the required written authorization.




                                                 i
We also noted three compliance and internal control deficiencies in LBR’s, and two of LBR’s
subawardees, (Louisiana State University and Southern University) financial management
practices that contributed to these questioned costs and if not corrected, could impact current and
future NSF awards. Specifically:

   •   Labor and related fringe benefits charged to NSF awards were not equitably allocated or
       adequately supported. Salaries and related fringe benefits claimed under NSF EPSCoR
       Award Nos.                                      did not reflect the actual work performed
       on these awards. The individuals that were charging the majority of their time to the
       EPSCoR awards were also working on other federal and state projects. Labor and related
       fringe benefits charged to NSF were based on the award budgets rather than actual effort
       expended. Furthermore, salaries and related fringe benefits were not charged to the two
       other on-going NSF Awards (                                       ), even though 3 of the 6
       of the LBR employees were working on those two awards. In addition, LBR did not use
       the correct form of timekeeping documentation required by federal regulations for a state
       agency. This condition occurred because LBR’s effort and reporting system was
       erroneously based on guidance applicable to educational organizations rather than
       guidance applicable to state governments. As a result, there is no assurance that the LBR
       effort reporting system reliably reported actual effort expended on the NSF awards.
       Therefore, we have questioned $1,305,283 of unequitably allocated or unsupported
       salaries and fringe benefits charged to NSF Award Nos.                    1 ($712,676) and
                     1 ($592,607).
   •   Improvements are needed to LBR’s subaward monitoring program for NSF funded
       subawards to better represent the different LBR subawardee organizations. The four NSF
       awards in the scope of this audit had 60 first tier subawards to 36 different subawardee
       institutions that claimed $15 million of the $18 million in total costs charged to the
       awards. LBR’s subaward monitoring of NSF funded subawards concentrated on the
       largest dollars which were subawarded to LSU. Accordingly, there were a number of first
       tier NSF funded subawardees that never received an on-site monitoring visit by LBR’s
       Audit Division. As a result, problems could exist in the internal controls at other
       subawardees and could go unnoticed by LBR. Our tests revealed problems at Southern
       University which is one of LBR’s subawardees. We also, noted an instance where a
       LSU/LBR second tier subawardee exceeded the budget without approval, although
       LBR’s monitoring review at LSU revealed no findings. Additional subawardee
       monitoring site visits would result in greater assurance that subaward costs claimed are
       allowable, reasonable and allocable to LBR’s current and future NSF awards.
   •   Southern University (SU) could not support a material amount of costs claimed under the
       LBR first tier subcontract under NSF Award No.                        SU could not provide
       adequate documentation supporting personnel costs, related fringe benefits, participant
       costs, and cost sharing claimed under the NSF award. Although SU had detailed
       procedures for maintaining records supporting costs incurred on sponsored programs, SU
       could not readily provide accounting documentation to support costs claimed. As a


                                                ii
       result, $547,741 of direct and indirect costs and $152,182 of cost sharing has been
       questioned.

To address these compliance and internal control deficiencies, we recommend that the Director
of NSF’s Division of Institution and Award Support (DIAS) address and resolve the following
recommendations made to LBR: (1) require the LBR to determine the labor charges and related
benefits charged to the NSF awards to reflect the actual costs in accordance with state agency
provisions, recover all personnel costs not applicable to NSF Award Nos.                     and
                and, review LBR’s revised effort reporting system to ensure that it complies with
the provisions of state agencies and will result in equitably distributed salaries and related
benefits; (2) consider performing on site monitoring visits of other NSF funded subawardees in
addition to LSU and, submit to the NSF the $17,696 of costs recovered from the University of
Illinois by LSU; and, (3) require Southern University to comply with its existing policies and
procedures to ensure that all claimed costs including cost sharing are supported with adequate
and sufficient supporting documentation; or recover the $547,741 of questioned direct and
indirect costs claimed and return it to NSF.

An additional recommendation was made to address the additional unallowable costs identified
during the audit. We recommended that LBR refund the $11,953 mistakenly charged to the NSF
award, and determine and document a use for the unused equipment that is consistent with the
objectives of the EPSCoR award, or refund the $2,277 to NSF.

LBR generally concurred with the recommendations and indicated it was taking corrective
actions to develop a time keeping system that is compliant with 2 CFR 225, expand their
subawardee monitoring program to include all NSF subawardees, and provide a refund or credit
to NSF for funds inappropriately charged to NSF awards. Also, LBR agreed with some of the
questioned labor charges on the two NSF EPSCOR awards but did not agree with the questioned
costs from it’s 1st tier subawardee, Southern University. LBR’s response is included in its
entirely in Attachment A. LBR’s response to each finding is summarized in the text of the report
following the auditors’ recommendations. Our comments on LBR’s responses follow each of
their responses. LBR’s response is also presented in its entirety in Attachment A of this report.

Our review of the previously identified audit recommendations revealed that most were
adequately addressed. See Attachment B to this report for details.

The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective actions have been
satisfactorily implemented.

For a complete discussion of audit findings, refer to the Report on Internal Control Over
Financial Reporting and on Compliance and Other Matters Based on an Audit of Financial
Schedules Performed in Accordance with Government Auditing Standards.




                                               iii
                                                       Louisiana Board of Regents


                                                         TABLE OF CONTENTS

                                                                                                                                                  Page

Executive Summary:                                                                                                                                       i

Table of Contents:                                                                                                                                     iv

Introduction:
   Background ......................................................................................................................................    1
   Audit Objectives, Scope and Methodology .....................................................................................                        3

Independent Auditors’ Report on Financial Schedules ................................................................                                    5

Internal Controls and Compliance:
   Report on Internal Control over Financial Reporting and on Compliance
    and Other Matters Based on an Audit of Financial Schedules Performed
     in Accordance with Government Auditing Standards ..................................................................                                7

Financial Schedules and Supplemental Information:

    Schedule A-1 - Schedule of Award Costs (Award No.                                           ...........................................            25
    Schedule A-2 - Schedule of Award Costs (Award No.                                            ..........................................            26
    Schedule A-3 - Schedule of Award Costs (Award No.                                           ...........................................            27
    Schedule A-4 - Schedule of Award Costs (Award No.                                         ) ...........................................            28
    Schedule B-1 Schedule of Questioned Costs ..................................................................................                       29
    Schedule C-1 Schedule of Costs Claimed by Southern University under
    NSF Award No.                   .......................................................................................................            33
    Schedule D-1 Notes to Schedule C-1 ..............................................................................................                  34
    Schedule E-1 Summary Schedules of Awards Audited and Audit Results .....................................                                           36
    Notes to Financial Schedules ..........................................................................................................            38

Appendices
  Attachment A – Awardee’s Comments to Report............................................................................ 40

    Attachment B – Status of Prior Review Findings ........................................................................... 64

    Attachment C – Exit Conference .................................................................................................... 66




                                                                           iv
INTRODUCTION
BACKGROUND

The National Science Foundation, Office of Inspector General (NSF-OIG) contracted with Foxx
& Company to perform an audit of four NSF awards to the Louisiana Board of Regents (LBR).
In addition to conducting internal control and substantive testing at LBR, Foxx & Company also
conducted internal control and substantive testing at the Louisiana State University (LSU), and
Southern University, both first tier sub recipients. Foxx & Company also conducted substantive
testing for costs claimed by the University of Illinois, LSU’s second tier sub recipient under NSF
Award No.

The LBR is a state Agency established in 1975. The LBR is the governing body charged with
the coordination and governance of state-wide education and research development of all State
public colleges and universities in Louisiana including 19 public colleges, universities, and
professional schools. As of March 2009, LBR had six awards from NSF totaling over $23.7
million. Because LBR is a state agency, it is required to follow the administrative and cost
principles specified in the Common Rule (formerly OMB Circular A-102), codified by NSF at
45 CFR Part 602, and 2 CFR 225 (formerly OMB Circular A-87), respectively. The majority of
the NSF funds included in the scope of our audit were sub-awarded by LBR to educational
institutions which are required to follow the administrative and cost principles of 2 CFR Part 215
(formerly OMB Circular A-110) and 2 CFR Part 220 (formerly OMB Circular A-21),
respectively.

Cost categories, approved budget, and claimed costs for the four NSF awards under audit were as
follows:

                Grant Nos.

                                      Total                                   Budgeted Costs
          Cost Categories            Budget
Salaries and Wages                     $2,003,618        $1,152,173                $0            $851,445            0
Fringe Benefits                          $375,238           197,948                 0            $177,290            0
Equipment                                 $31,130            31,130                 0                   0            0
Travel                                   $102,000            58,000            12,000              32,000            0
Materials and Supplies                    $77,464            43,000                 0              34,464            0
Consultant Services                      $247,000           125,000                 0             122,000            0
Sub awards                            $18,363,330         7,310,113         5,135,000           3,324,261    2,593,956
Other Direct Costs                     $1,741,176           282,636                 0           1,458,540            0
                Total                 $22,940,956        $9,200,000         5,147,000          $6,000,000   $2,593,956
           Cost Sharing                $6,500,000        $4,500,000        $2,000,000                  $0           $0

                                                                      Claimed Costs through 9/30/2009
          Cost Categories         Total Claimed
Salaries and Wages                      $1,722,978         $983,319                $0            $739,659          $0
Fringe Benefits                            458,904          262,540                 0             196,364           0
Equipment                                  373,245          373,245                 0                   0           0
Travel                                     254,078          206,206                 0              47,872           0
Materials and Supplies                      48,977           37,917                 0              11,060           0
Consultant Services                        190,425           91,994                 0              98,431           0
Sub awards                              15,486,684        6,947,169        $4,347,534           3,276,193     915,788
Other Direct Costs                          64,875           28,883                 0              35,992           0
             Subtotal                  $18,600,166       $8,931,273        $4,347,534          $4,405,571    $915,788
    Costs incurred in Excess of
       claimed costs to NSF              $(2,987)          $(2,987)                $0                  $0          $0
            Total Costs               $18,597,179        $8,928,286        $4,347,534          $4,405,571    $915,788
           Cost Sharing                $8,163,470        $4,719,031        $3,444,439                  $0          $0




                                                     1
Grant Award                    was for Louisiana’s Strategic Infrastructure Improvements. The
LBR was awarded $9.2 million for a project entitled The Experimental Program to Stimulate
Competitive Research (EPSCoR). The purpose of the award was to support research and
educational activities to enhance Louisiana’s R&D competitiveness; build partnerships among
Louisiana universities, national laboratories, and the private sector; and to recruit students
especially from underrepresented groups into science and engineering fields. The grant budget
period was from May 15, 2004 through March 31, 2008. The award included $1.35 million in
salaries, wages and fringe benefits for LBR; and $7.3 million in sub awards of which over $7
million went to LSU. This award also required $4.5 million in cost sharing. The cumulative
disbursements for Award No.                  reported to NSF through September 30, 2009 were
$8,928,286. Cost share claimed through September 30, 2009 was $4,719,031.

Cooperative Agreement                    was a continuing cooperative agreement for The Louis
Stokes Louisiana Alliance for Minority Participation (LS-LAMP). The purpose of the award
was to develop a statewide, comprehensive systemic mentoring program aimed at rapidly
increasing the number and quality of minority students earning baccalaureate degrees in science,
technology, engineering, and mathematics (STEM) disciplines and actively promoting their
transition to STEM graduate schools for the pursuit of terminal degrees (PHD). The LBR was
awarded over $5.1 million for the project. The cooperative agreement budget period was from
November 1, 2005 through October 31, 2010. The award included over $5.1 million in sub-
awards of which over $3.3 million was awarded to LSU and $1.8 million to Southern University.
The cost sharing requirement under this cooperative agreement was $2 million dollars. The
cumulative disbursements for Award No                   reported to NSF through September 30,
2009 was $4,347,534. Cost share claimed through September 30, 2009 was $3,444,439.

Grant Agreement                     was a continuing grant agreement for Louisiana’s Research
Infrastructure Improvement Strategy. The grant was awarded under NSF’s Experimental
Program to Stimulate Competitive Research (EPSCoR). The purpose of the award was to
advance interdisciplinary research across the State’s institutions of higher education by
establishing a statewide research and information technology infrastructure that integrates
selected areas of scientific strength with development of cyber infrastructure tools. The LBR
was awarded $6 million for the project. The grant budget period was from October 1, 2007
through September 30, 2010. The award included over $1 million in salary, wages and fringe
benefits and over $1.6 million in other direct costs for LBR. The award also included about $3.3
in sub-awards of which about $2.7 million went to LSU. No cost sharing was required under
this award. The cumulative disbursements for Award No.                         reported to NSF
through September 30, 2009 was $4,405,571.

Cooperative Agreement                      was a continuing cooperative agreement for High
Performance Computing for Science and Engineering Research and Education Operations
(HPCOPS): The LONI Grid – Leveraging HPC Resources of the Louisiana Optical Network
Initiative for Science and Engineering Research and Education. The purpose of the award was to
enhance and expand the TeraGrid by contributing major new computational resources from the
Louisiana Optical Network Initiative; to provide new cyber infrastructure, services, research, and
developmental projects that will benefit the national community; and to bring additional user
communities from underrepresented scientific application domains and geographic regions of the
US by working with communities from the LONI with TeraGrid. The LBR was awarded almost
$2.6 million for the project. The cooperative agreement budget period was from October 1, 2007
through March 31, 2010. The entire award was for sub-awards to LSU. No cost sharing was
                                              2
required under this award. The cumulative disbursements for Award No                   reported
to NSF through September 30, 2009 was $915,788.

AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

AUDIT OBJECTIVE

The audit objectives include determining whether: (1) the LBR’s system of internal control is
adequate to account for and safeguard NSF funds, (2) the LBR’s costs claimed are allowable and
in conformity with the terms and conditions of the NSF awards and Federal requirements, and
(3) the LBR, LSU, and Southern University complied with applicable laws, regulations, and
award terms and conditions.

Specific objectives of the audit were to:

   1. Determine whether the LBR, LSU and Southern have an adequate system of internal
      controls over administrating its NSF funds to account for and ensure compliance with
      applicable federal and NSF award provisions.

   2. Identify and report instances of noncompliance with laws, regulations, and the provisions
      of the award agreements and weaknesses in the LBR’s, LSU’s, and Southern University’s
      internal controls over compliance and financial reporting that could have a direct and
      material effect on the Schedule of Award Costs. In addition, LBR’s ability to properly
      administer, account for, and manage its NSF awards would be evaluated.

   3. Determine and report on whether LBR and LSU adequately monitor their sub-awards.

   4. Follow-up on recommendations identified in OIG’s 1998 audit, NSF’s 2004 financial
      administrative site visit, and the LBR 2007 OMB Circular A-133 audit to determine if
      the issues raised were satisfactorily addressed and recommendations implemented. (The
      Single Audit for the Year ended June 30, 2008 was issued in March 2009. We have
      followed up on the findings in that report.)

   5. Determine and report on whether the Schedules of Award Costs of the LBR present
      fairly, in all material respects, the costs claimed on the Federal Cash Transaction
      Reports/Federal Financial Reports and cost sharing in conformity with NSF-OIG
      Financial Audit Guide and the terms and conditions of the NSF award.

SCOPE AND METHODOLOGY

We performed inquiries and walkthroughs of the expenditure, revenue, payroll, and
reporting/drawdown cycles. The purpose of our inquiries and walkthroughs was to obtain an
understanding of the internal controls over these cycles and to assess the control strengths and
weaknesses which were in place, and to devise and execute tests of the controls. Our tests were
designed not only to address the controls in place but also to address the audit objectives. In
conducting the survey and internal control assessments, we interviewed key personnel of each
organization related to the operations for specific audit areas as deemed necessary. We reviewed
and documented the organizations procedures and policies, and tested significant controls.

                                             3
We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards (2007 Revision) issued by the Comptroller General of the United States, and the
guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. Foxx & Company also complied with the most current AICPA financial audit
standards, including the Statements on Auditing Standards (SAS) 62, 99, and 102 through 117.

These standards and the NSF OIG Audit Guide require that we plan and perform the audit to
obtain reasonable assurance about whether amounts claimed to NSF as presented in the
Schedules of Award Costs, (Schedules A-1 through A-4) are free of material misstatements. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedules of Award Costs. An audit also includes assessing the accounting principles used and
the significant estimates made by the LBR, as well as evaluating the overall financial schedule
presentation. We believe that our audit provides a reasonable basis for our opinion.




                                              4
AUDIT REPORT ON FINANCIAL SCHEDULES
                AND
    SUPPLEMENTAL INFORMATION
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

         INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by State of Louisiana, Board of Regents to the National
Science Foundation (NSF) on the Federal Financial Reports (FFRs) for the NSF awards listed
below. In addition, we audited the amount of cost share claimed on the NSF awards, as
applicable. The FFRs, as presented in the Schedules of Award Costs (Schedules A-1 through A-
4), are the responsibility of LBR’s management. Our responsibility is to express an opinion on
the Schedules of Award Costs (Schedules A-1 through A-4) based on our audit.

           Award Number                     Award Period                   Audit Period

                                         05/15/04 - 03/31/08            05/15/04 - 03/31/08
                                         11/01/05 - 10/31/10            11/01/05 - 09/30/09
                                         10/01/07 - 09/30/10            10/01/07 - 09/30/09
                                         10/01/07 - 03/31/10            10/01/07 - 09/30/09

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States (2007 revision), and the
guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. Those standards and the National Science Foundation OIG Audit Guide, require that
we plan and perform the audit to obtain reasonable assurance about whether the amounts claimed
to NSF as presented in the Schedules of Award Costs (Schedules A-1 to A-4) are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedules of Award Costs (Schedules A-1 through A-4). An audit also
includes assessing the accounting principles used and the significant estimates made by LBR’s
management, as well as evaluating the overall financial schedule presentation. We believe our
audit provides a reasonable basis for our opinion.

The Schedule of Questioned Costs (Schedule B) explains the $1,884,950 (10%) of total claimed
costs that we questioned as to their allowability under the NSF award agreements. These
questioned costs include inadequately supported, unallowable, or unapproved labor, fringe
benefit, equipment, and subaward costs. The Schedule of Subaward Costs (Schedule C-1)
explains the $152,182 of questioned unsupported cost sharing claimed by a subawardee.
Questioned costs are (1) costs for which there is documentation that the recorded costs were

                                             5
expended in violation of the laws, regulations or specific award conditions, (2) costs that require
additional support by the awardee, or (3) costs that require interpretation of allowability by
NSF’s Division of Institution and Award Support. The final determination as to whether such
costs are allowable will be made by NSF. The ultimate outcome of this determination cannot
presently be determined. Accordingly, no adjustment has been made to costs claimed for any
potential disallowance by NSF.

In our opinion, except for the $1,884,950 of questioned NSF-funded cost and the $152,182 of
questioned cost share, the Schedules of Award Costs (Schedules A-1 through A-4) referred to
above present fairly, in all material respects, the costs claimed on the FFRs and cost sharing
claimed for the period of May 15, 2004 through September 30, 2009, in conformity with the
provisions of the National Science Foundation, Office of Inspector General Audit Guide,
National Science Foundation Grant Policy Manual, terms and conditions of the NSF awards
and on the basis of accounting described in the Notes to the Financial Schedules, which is a
comprehensive basis of accounting other than generally accepted accounting principles. These
schedules are not intended to be a complete presentation of financial position of LBR in
conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, and guidance provided in the National
Science Foundation OIG Audit Guide, we have also issued a report dated January 19, 2011, on
our consideration of LBR’s internal control over financial reporting and our tests of LBR’s
compliance with certain provisions of laws, regulations, grant agreements, and NSF award terms
and conditions and other matters. The purpose of that report is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on the internal control over financial reporting or on compliance.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.

Our audit was conducted for the purpose of forming an opinion on the Schedules of Award Costs
(Schedules A-1 to A-4). The accompanying schedules B-1, C-1, D-1, and E-1 are presented for
purposes of additional analysis, as required by the National Science Foundation OIG Audit
Guide. Such information has been subjected to the auditing procedures applied in the audit of the
Schedules of Award Costs and, in our opinion, except for the $1,884,950 of questioned NSF
funded costs and the $152,182 of questioned cost sharing, is fairly stated, in all material respects,
in relation to the Schedules of Award Costs.

This report is intended solely for the information and use of Louisiana Board of Regents’
Management, the National Science Foundation, the Louisiana Board of Regents’ cognizant
federal audit agency, the Office of Management and Budget, and the Congress of the United
States and is not intended to be, and should not be used, by anyone other than these specified
parties.

Foxx & Company
Cincinnati, Ohio
January 19, 2011

                                                6
INTERNAL CONTROLS AND
     COMPLIANCE
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON
   COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL
  SCHEDULES PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING
                           STANDARDS

We have audited the costs claimed as presented in the Schedules of Award Costs (Schedules A-1
through A-4), which summarize financial reports submitted by Louisiana’s Board of Regents
(LBR) to the National Science Foundation (NSF) and claimed cost share, as applicable for the
awards and periods listed below and have issued our report thereon dated January 19, 2011.

           Award Number                      Award Period                    Audit Period

                                          05/15/04 - 03/31/08             05/15/04 - 03/31/08
                                          11/01/05 - 10/31/10             11/01/05 - 09/30/09
                                          10/01/07 - 09/30/10             10/01/07 - 09/30/09
                                          10/01/07 - 03/31/10             10/01/07 - 09/30/09

We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 through
A-4 in accordance with auditing standards generally accepted in the United States of America,
the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States (2007 revision), and the guidance provided in
the National Science Foundation Audit Guide (August 2007), as applicable.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 through
A-4) for the period May 15, 2004 to September 30, 2009, we considered LBR’s internal control
over financial reporting as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial schedules, but not for the purpose of expressing an
opinion on the effectiveness of LBR’s internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of LBR’s internal control over financial
reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in internal


                                                7
control over financial reporting that might be significant deficiencies or material weaknesses and
therefore, there can be no assurance that all deficiencies, significant deficiencies, or material
weaknesses have been identified. However, as described below in the Findings and
Recommendations, we identified certain deficiencies in internal control over financial reporting
that we consider to be material weaknesses and other deficiencies that we consider to be
significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of LBR’s financial schedules will not be prevented, or
detected and corrected on a timely basis. We consider the deficiencies described in Finding Nos.
1 and 3 to be material weaknesses. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. We consider the deficiencies described in
Finding Nos. 2 and 4 to be significant deficiencies.

COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether LBR’s financial schedules are free of
material misstatement, we performed tests of LBR’s compliance with certain provisions of
applicable laws, regulations, and NSF award terms and conditions, noncompliance with which
could have a direct and material effect on the determination of financial schedule amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our tests of compliance
disclosed four instances of noncompliance that are required to be reported under Government
Auditing Standards and the National Science Foundation OIG Audit Guide and are described in
Finding Nos. 1 through 4 in the Findings and Recommendations below.

LBR’s response to the findings identified in our audit is described below after each
recommendation and is included in its entirety in Attachment A. We did not audit LBR’s
response and accordingly, we express no opinion on it.




                                                 8
FINDINGS AND RECOMMENDATIONS

Finding 1. Improvements to the Internal Controls Over Labor Reporting Effort Are
Needed

Labor and related fringe benefits charged to NSF awards were not equitably allocated or
adequately supported. Our review of the LBR effort reporting system disclosed that salaries and
related fringe benefits claimed under the two NSF EPSCOR Award Nos.                       and
         did not reflect the actual work performed on these awards. Four individuals that were
charging the majority of their time to the EPSCoR awards were also working on other federal
and state projects. Labor and related fringe benefits charged to NSF were based on the award
budgets rather than actual effort expended. Furthermore, the two other NSF Awards (
                               had no salaries and related fringe benefits charged to either award.
In addition, LBR did not use the correct form of timekeeping documentation required by federal
regulations for a state agency. This condition occurred because LBR’s effort and reporting
system was based on provisions of guidance applicable to educational organizations rather than
guidance applicable to state governments. LBR mistakenly believed it could use effort reporting
applicable to universities.

As a result, because of the inaccurate allocation of salaries and related fringe benefit costs and
the improper documentation to support labor charges for staff working on more than one project,
there is no assurance that the LBR effort reporting system reliably reported actual effort
expended on the NSF awards. Therefore, we questioned $1,305,283 of the salaries and fringe
benefits charged to NSF Award Nos.                  ($712,676) and                 ($592,607) for
staff working on more than one project. We affirmed, through interviews and written testimony
that all effort charged was not actually expended on these NSF projects. However, we could not
determine how much of that effort was actually expended on the two NSF projects charged
throughout the award period.

According to LBR’s “Policy on Time and Effort reporting for Federally-Sponsored Projects” the
Plan Confirmation method for payroll distribution as described under 2 CFR 220 (formerly OMB
Circular A-21) Item J.8c(1) is used to account for time charged to the NSF awards. However,
since LBR is an instrumentality of the State of Louisiana the provisions of 2 CFR 220 do not
apply but 2 CFR Part 225 (formerly OMB Circular A-87) applied. This regulation requires time
and effort reporting for employees working on more than one project.

Under the Plan Confirmation method for universities, the distribution of salaries and wages of
professorial and professional staff applicable to sponsored agreements is based on budgeted,
planned or assigned work activity, updated to reflect any significant changes in work
distribution. This work can be performed for one or more sponsored projects. If any significant
change occurs, the change will be timely documented over the signature of a responsible official
and entered into the payroll system. At least annually, however a statement should be signed by
the employee, principal investigator, or responsible official with knowledge that the work was
performed as charged.

Under the cost principles for state agencies, 2 CFR Part 225, where employees are expected to
work solely on a single Federal award or cost objective, charges for their salaries should be
supported by periodic or at least semiannual certifications that the employees worked solely on
that program. The certifications should be signed by the employee or supervisory official having

                                                9
first hand knowledge of the work performed by the employee. Therefore, the rules for awardees
in universities and states are very similar for employees who work solely on a single Federal
award or cost objective. However, for states, where employees work on multiple activities or
cost objectives, a distribution of their salaries or wages should be supported by personnel activity
reports or the equivalent documentation that must meet the following standards:

   a.   reflect an after-the-fact distribution of the actual activity of each employee;
   b.   account for the total activity for which each employee is compensated;
   c.   be prepared at least monthly and must coincide with one or more pay periods; and
   d.   be signed by the employee.

Budgeted estimates or other distribution percentages determined before the services are
performed do not qualify as support for charges to Federal awards unless other guidelines in 2
CFR 225 are followed, which are not in place at LBR. In addition, the cost principles for both
educational institutions and state agencies require that the salaries, wages, and fringe costs
charged to the sponsored project accurately reflect the amount of effort that was actually
expended on the project.

We found that five of the six employees at LBR were charging time to the NSF awards and were
completing effort reports in accordance with the educational institutional requirements, 2 CFR
220. The five employees were preparing semi-annual certifications that listed the percentages
charged to each program. The sixth employee, the computer programmer, was charging time to
the NSF awards but was not preparing any form of time certification or effort reporting.
However, only two of the six employees were working solely on one NSF project. In addition,
our review of the LBR effort reporting system disclosed that salaries and related fringe benefits
claimed under NSF Award Nos.                    and                did not reflect the actual work
performed on these awards, even though the salaries were certified by the employees. Much of
the charges made to these awards were for work performed on other NSF, federal and non-
federal projects. Furthermore, the two other NSF Awards
had no salaries and related fringe benefits charged to either award, even though the LBR
employees admitted to spending some time on those two awards, as well as other projects. We
found no exceptions for salaries and related fringe benefits for the two employees working 100
percent of their time on an NSF award and accepted the salaries and related fringe benefits
charged to the two EPSCoR awards. However, we questioned the remaining $1,305,283 of
salaries and related benefit costs claimed under two NSF awards for the four staff who were
working on multiple projects, because those costs were either not accurately allocated to the NSF
awards or the costs were not adequately supported in accordance with 2 CFR 225.

Specifically, because time was charged only to NSF EPSCoR Award Nos.                       and
                the remaining two NSF grants, other federal grants, and state projects did not
receive an equitable allocation of direct labor costs. LBR did not have available documentation
supporting and identifying the benefits that were provided by the employees who were working
on multiple projects but charging their time to the two NSF EPSCoR awards. Accordingly, we
interviewed the six LBR employees charging time to the two NSF awards and had each
employee complete a questionnaire outlining their duties.

During our interviews and tests, we noted that even though the employees were actually working
on other projects, all time was being charged to the two NSF EPSCoR Award Nos.
and                  which are the initial and continuing grant awards for the Louisiana Strategic

                                                10
Infrastructure Improvement Program, respectively. The following table shows the percentage of
time charged to NSF Award Nos.                                   through September 30, 2009
based on written statements from the staff and verified by interviews in comparison to the
percentages of time actually charged to the NSF awards.

                                                                                Amount
                                                     Per Written
                                                                               charged to
                                                      Statement
            Individual          Period                                          awards
                                                                             NSF*
                                                  NSF*           Other               Other
                                                                             Award
           No. 1            5/04-3/08              35%            65%         50%     50%
           No.1             4/08-9/09              30%            70%        100%      0%
           No. 2            5/04-3/08            31.25%          68.75%      100%      0%
           No. 2            10/07-9/09             30%            70%        100%      0%
           No. 3            5/04-9/09              50%            50%         50%     50%
           No. 4            5/04-9/09             100%              0        100%      0%
           No. 5            4/08-9/09             100%              0        100%      0%
           No. 6            5/04-09/09             80%            20%        100%      0%

             * NSF Award: Either
              Note: all employees certified to the amount charged to the awards except employee No. 3.

The above schedule shows that charges on the certifications for three of the six employees were
not accurate, even though the charges were certified by the employees. (The fourth employee
(No. 3) did not prepare any form of certification but charged 50 % of his time to the EPSCoR
awards.) For example for Employee No. 1, the                                             who was
responsible for ensuring that costs for NSF, Department of Energy (DOE), National Aeronautics
and Space Administration (NASA) and LBR (state) supported projects were charged to the
appropriate awards, charged 50 percent of his time to the               but the written statement
estimated that only 35% of the individual’s time was applicable to the EPSCoR award. For
Award No.                  , 100 percent of the person’s time was charged to the EPSCoR grant,
but the written statement estimated that only 30 percent of the individual’s time was applicable
to NSF Award Nos.                      for the period April 2008 through September 30, 2009.
Because of the significant differences between the information provided during the audit by the
individual and the amounts claimed, and the lack of sufficient evidence in the form of an
acceptable time and effort reporting, we could not determine what amounts should have been
charged to each of the NSF awards. As a result, we have questioned all salary and related benefit
costs claimed for lack of adequate support.

Employee No. 2 was a                             involved in all LBR contracts and awards but
charging 100% of the time to the EPSCoR awards. The contracts included the other federal
projects (EPSCOR projects from NASA and the Department of Energy and non EPSCoR NSF
awards) and state projects. According to the written statement the individual estimated that only
about 30% of the time was spent on NSF Award Nos.                                          while
100% of the individual’s time was charged to two awards. Because of the significant differences
between what was charged to the NSF awards, what was provided to us as written estimates,
coupled with the lack of a proper time keeping system we have questioned all salaries and related
fringes for this position.


                                                     11
Employee No. 3, the                             responsible for operating and maintaining the
                                                        ), was charging 50% of his time direct to
NSF Grant No.                   However, he was not completing certifications or any other form
effort reporting. The                                         used for all LBR grants, non-NSF
federal grants and state projects for: (1) submitting research grant proposals to the LBR, (2)
completing annual or financial progress reports, and (3) submitting expenditure reports.
Therefore, the           system benefits all LBR projects and not just the NSF EPSCoR grant.
Accordingly, if 50% of this individual’s time was for working on the           system, all of the
50% should not be charged to the NSF EPSCoR award because the                system benefits all
federal and state projects. Also, because the programmer did not complete any form of effort
reporting, there was not adequate support for the actual time charged to the NSF awards, the
entire amount claimed for this position was questioned.

Employee No. 6 was the                              responsible for EPSCoR communications and
other activities. Although this person estimated that she worked 80% on LBR EPSCoR, 100 %
of the time was charged to Award Nos.                                     . Also, based on our
review of the duties described for this position, this individual may have been working on non
NSF funded EPSCoR projects. Because the individual did not prepare time and effort reporting
supporting the time charged to the NSF awards, the likelihood that a significant portion of effort
could have been expended on other than the NSF funded EPSCoR awards, and the estimated
difference between what was charged (100%) and what was estimated (80%), the costs for this
individual are questioned.

Employee Nos. 4 and 5 provided appropriate documentation to support their charges to the NSF
EPSCoR awards. Accordingly, we accepted those charges.

Disparities between the time charged and the actual time worked on the NSF awards existed for
several reasons: (1) employees working on more than one project were not completing effort
reports that accurately showed their actual time, (2) the employees were charging time as
budgeted not as incurred, and (3) the other two NSF awards did not have salaries and fringe
benefit cost categories budgeted in the awards.

LBR officials told us that the incorrect use of the educational requirements occurred because a
previous LBR commissioner had determined that because LBR dealt with state universities it
should use the provisions of 2 CFR 220 (formerly A-21). This position was reinforced by a NSF
Grants Division review in 2004 that, in error, recommended that LBR start using effort reporting
in accordance with 2 CFR 220. We verified with NSF that because LBR is a state agency, it is
required to comply with the provisions of 2 CFR 225.

LBR did take actions to improve the effort reporting process to comply with 2 CFR 225
requirements during our audit; however, improvements are still needed. After we notified LBR
in January 2010 that the effort reporting system they were using did not comply with
requirements for a state agency, LBR developed new time keeping procedures to comply. The
new procedures require any employee working on more than one project to prepare weekly time
sheets. Employees working entirely on one project were required to complete semi-annual
certifications. According to LBR officials the weekly time sheets were prepared on a pilot basis
beginning with the week ended April 23, 2010. Starting July 1, 2010, the budget percentages
used to charge time to the various grants were changed based on the time charges from the

                                               12
weekly time sheets. However, we did not review time charges under the new system because it
was outside the scope of our audit (after September 30, 2009). If the revised effort reporting
procedures are not accurate, complete, and properly implemented, inaccurate charges to the NSF
awards will continue on current and future NSF awards.

In summary, because there were no records documenting actual time, it was necessary to
interview employees charging time to the NSF awards to obtain a description of their duties and
to have them provide a written estimate of time spent on all projects. However, the information
obtained from the interviews and written statements was based on recollections of up to five
years. For four of the six employees charging time to the NSF EPSCoR awards, the written
estimates did not match what was charged to the EPSCoR awards during the five year audit
period. As a result, NSF does not have assurance that the LBR effort reporting system reliably
reported actual effort expended on NSF awards. Except for the two employees (Employees 4 and
5) working 100% on the NSF awards, none of the other employees completed adequate effort
reports in accordance with 2 CFR 225 during the audit period. Therefore, the lack of an effort
reporting system in compliance with 2 CFR 225 and the multiple programs worked on by some
of the employees that were not allocating an equitable portion of their salaries has resulted in
$1,305,283 being questioned.

Recommendation No. 1:

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve the following recommendations made to LBR:

   a) Require LBR to determine the salaries, wages, and related benefits charged to the NSF
      awards to reflect the actual costs incurred for each of the NSF awards prior to the
      establishment of the new time and effort reporting system in accordance with federal
      requirements,

   b) Recover all personnel costs not applicable to the two NSF awards (                        and
                    , and

   c) Review LBR’s revised Effort Reporting System to ensure that it complies with the
      provisions for state agencies (2 CFR Part 225) and that it will result in equitably
      distributed salaries and related benefits. LBR may require supervisory review and
      approval of the timesheets and semiannual certifications for all staff that work on NSF
      awards to ensure that salary charges are accurately allocated, although the federal
      regulations only require the employee’s approval.

       Awardee Comments

       LBR stated that: “The key issue of this finding, i.e., that labor and related fringe benefits
       charged to NSF awards were not equitably allocated or adequately supported, was mainly
       due to the situation described below in the response to Recommendation 1.c. namely, that
       the LBR was advised by NSF in 2004 to use an effort and reporting system under the
       provisions of 2 CFR 220 (formerly OMB Circular A-21).” LBR continues to explain that


                                                13
the Experimental program to Stimulate Competitive Research (EPSCoR) is an atypical
NSF program which requires a high level of coordination among programs to achieve its
goal. The LBR EPSCoR office served as a coordinating function to help achieve this
goal, ensuring that both federal and state programs were operating in concert to increase
the effectiveness for the State’s science, technology, and education endeavors.

In response to Recommendation 1.a., the questioned labor and associated fringe benefits
at LBR, the response recalculates the percentages that the employees whose salaries were
questioned in the draft audit report were working on either
         . In addition, LBR continues to explain that an indirect cost rate was not claimed
for these NSF awards plus there were other individuals that worked toward the success of
the EPSCoR program that were not budgeted or charged to the two awards. For
Recommendation 1.b. LBR uses recalculated percentages to arrive at the amounts
applicable to the NSF awards and the differences of $110,730 charged to Award No.
                 and $115,555 for Award No.                               In response to
Recommendation No. 1.c. LBR stated that it had used the Plan Conformation method of
Payroll Distribution at the direction of NSF in 2004. However, as a result of the audit it
has instituted a time keeping system starting in July 2010 that is compliant with 2 CFR
225.

Auditor’s Response

LBR’s use of provisions of 2 CFR 220, which was mistakenly recommended by NSF, did
not cause LBR’s inequitably allocated or inadequately supported labor costs. Proper
application of the incorrect provision would still result in accurate labor costs charged to
NSF awards. Other comments made by LBR are responsive to the recommendations,
however, we cannot verify the questioned salaries and related fringe benefits contained
in LBR’s response to the draft report for the following reasons:

a.     As stated in Finding No. 1 because of the differences in the time percentages
       between what was originally charged to the two EPSCoR awards
                              using the Planned Confirmation method, the written
       statements of the individuals that were still employed at LBR during the audit
       fieldwork, the percentages from interviews with employees and the revised
       percentages in the response to the draft report, we cannot determine what actual
       effort was expended on the EPSCoR awards.
b.     Several of the employees that had charged time to the awards that no longer work
       for LBR were not available for us to interview or obtain written statements of
       their efforts. Therefore, we do not have any documentation to make a decision on
       the amount of effort charged to the EPSCoR awards.
c.     We assume that the differences shown in response to Recommendation No. 1.b. in
       the amounts of $110,730 and $115,555 shown as differences are amounts that
       LBR agrees should not have been charged to the EPSCoR awards.

The implementation of a time keeping system in accordance with 2 CFR 225 is a very
positive step; and if implemented properly will result in recommendation No. 1 c being
resolved. However, we did not review the new time keeping system during the audit
field work because the system was implemented outside the scope of our audit.
Accordingly, we cannot comment on its adequacy.

                                         14
       Based on LBR’s response to Recommendations 1a and 1b we recommend that the NSF’s
       Director of the Division of Institution and Award Support perform a technical review of
       the efforts performed by LBR on Award Nos.                                           to
       determine the amount of salaries and related benefits eligible for reimbursement in
       accordance with federal regulations; and recover the appropriate amount of questioned
       costs. In regard to Recommendation No. 1c, we recommend that NSF review the time
       and effort reporting system to ensure that it is working as intended and in accordance
       with 2 CFR 225.

       This report finding should not be closed until NSF determines that corrective actions
       have been satisfactorily implemented by LBR.

Finding No. 2 - Monitoring of Subawards Needs Improvements

Improvements are needed to LBR’s NSF funded subaward monitoring program to better
represent its different NSF funded subawardee organizations. The four NSF awards in the scope
of this audit had 60 first tier subawards to 36 different subawardee institutions that charged $15
million of the $18 million in total costs charged to the awards. LBR’s subaward monitoring of
NSF funded subawards concentrated on the largest dollars which were subawarded to LSU.
Therefore, there were a number of first tier NSF funded subawardees that never received an on-
site monitoring visit by LBR’s Audit Division. As a result, problems could exist in the internal
controls at other subawardees and could go unnoticed by LBR. Our tests revealed problems at
Southern University which is one of LBR’s subawardees. We also, noted an instance where a
LSU/LBR second tier subawardee exceeded the budget without approval, although LBR’s
monitoring review at LSU revealed no findings. Additional subawardee monitoring site visits
would result in greater assurance that subaward costs claimed are allowable, reasonable and
allocable to its current and future NSF awards.

The monitoring of subawards is required by 45 CFR 602.40 (Common rule codified by NSF) and
OMB Circular A-133. According to 45 CFR 602.40 grantees are responsible for managing the
day-to-day operations of grant and subgrant supported activities. Grantees must monitor grant
and subgrant supported activities to assure compliance with applicable Federal requirements and
that performance goals are being achieved. OMB Circular A-133, Section .400(d)(3) requires
states to monitor the activities of subawardees as necessary to ensure that Federal awards are
used for authorized purposes in compliance with laws, regulations, and the provisions of
contracts or grant agreements and that performance goals are achieved.

Our review of LBR’s subawardee monitoring revealed that the LBR Audit Division was
responsible for monitoring subawardees for compliance with federal fiscal requirements. The
LBR Audit Division performed site visits using written procedures which included a detailed
audit program and work papers supporting the work performed during the visit. For the
subawardees that did not receive a site visit the Audit Division requested the annual Single Audit
reports from the subawardees. The LBR’s Audit Division reviewed the Single Audit reports and
audited financial statements, and followed up with the subawardees to ensure that any material
weaknesses, instance of non-compliance for findings related to LBR’s subawards had been
properly and timely resolved. In addition, LBR’s Sponsored Program Section reviews technical
and expenditure reports submitted by subawardees through the Louisiana Online Grant
Automation Network (LOGAN) system, an internet based system. These reports are reviewed by

                                               15
the staff to ensure that invoices support expenditures and that expenditures are in accordance
with subaward budgets.

We reviewed the monitoring documentation and audit review programs used by the internal
auditor and found that the written monitoring programs would, in general, meet the federal
requirement for monitoring fiscal requirements of the subawardees, if conducted properly. We
also reviewed the four audit reports that the LBR Audit Division issued on the LSU subawards
reviewed under NSF Award Nos.
           However, the reports did not identify the dollars amounts of expenditures reviewed.
The reports were for costs incurred for various periods anywhere from 3 months to one year.
The conclusion in each of the four reports was that “LSU maintained an adequate financial
management system and supporting documentation for funds received from the Board of Regents
to provide reasonable assurance of compliance with all applicable laws and regulations, as well
as the terms of the sub-grant document.” However, we noted that the LBR Audit Division had
only reviewed NSF funded subawards at the Louisiana State University (LSU). Because the
Audit Division was using a risk based approach to select subawardees based on subaward dollar
amounts, in the case of the NSF awards, LSU overwhelmingly received the largest portion of
subaward dollars. Therefore, the other LBR subawards received either limited or no fiscal
subaward monitoring to ensure compliance with Federal laws and regulations, other than A-133
reviews. We believe that LBR’s subawardee monitoring could be improved by performing steps
beyond a review of the OMB Circular A-133 audit report results, such as performing desk
reviews, site visits, and sampling of support documentation using a risk-based method for non-
LSU subawardees.

We performed additional procedures at three subawardees to satisfy ourselves that the subaward
costs charged by LBR to the NSF grants are accurate, allowable and allocable. These three
subawardees included LSU, Southern University (SU), and University of Illinois (U of I). Total
amount of subaward costs claimed by LBR for these three subawardees as of September 30,
2009 is about $14.5 million or 90 percent of total subaward costs claimed. The following is a
description of the exceptions we noted during our review for the University of Illinois and
Southern University.

University of Illinois

We found that the University of Illinois (U of I) billed labor costs in excess of the budget without
prior approval under a NSF funded LBR second tier subaward under Award No.                         .
Our review noted that the University of Illinois invoiced LSU $173,287 for subcontract services
rendered from October 1, 2007 through January 31, 2009. However, the portion of the invoice
for salary and fringe benefits exceeded 20 percent of the total budgeted salary line items.
According to the subaward prior written approval from LSU’s Principle Investigator or another
authorized official was required when a budget line item was exceeded by 20 percent. We found
no indication that the prior written approval was obtained. We subsequently notified LSU of the
above issue, and LSU’s responded in a September 14, 2010 email and agreed that the U of I
exceeded the budget categories for salaries and fringe benefits. Consequently, LSU notified the
U of I of this situation and the U of I issued a refund check for $17,696 to LSU. Based on the
above, we have questioned the $17,696 amount as unauthorized costs in excess of 20 percent of
the subcontract budget. Apparently, the LBR Audit Division was unaware of this issue because
its report dated May 14, 2010, did not disclose this issue, even though the NSF funded subaward


                                                16
was within the scope of its on-site review. However, because of the numerous subawards at LSU
and the limited LBR Audit Division staff, the U of I budget issue may have gone unnoticed.

Southern University

We determined that Southern University could not support costs claimed under the LBR first tier
subcontract under NSF Award No.                     . As noted in Finding No. 3, documentation
supporting the costs claimed by Southern University was inadequate for a significant amount of
the costs claimed. As a result, $547,741 of direct and indirect costs and $152,182 of cost sharing
has been questioned.

The LBR Audit Division’s concentration on NSF funded subawards at LSU has not provided
LBR with assurance that other subawards were complying with federal and state subawards
requirements. Therefore, LBR’s current practice of only reviewing LSU subawards funded by
NSF increases the risk that some of the subawardee costs claimed by other LBR subawardees
may be unallowable, unreasonable or not allocable to the NSF awards.

Recommendation No. 2

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve the following recommendations made to LBR:

   a) Consider expanding fiscal subawardee monitoring policies and procedures to include
      subawardees other than LSU using a risk-based approach and require that all reports
      identify the amounts of expenditures reviewed, and

   b) Submit to NSF the $17,696 of costs recovered from the University of Illinois by LSU.

Awardee Comments

LBR agreed with the Recommendation 2 a. and listed the procedures that the LBR Audit
Sections utilizes when determining which subawardees to audit. Also, LBR stated that starting
with the 6/30/2011 Fiscal Year (FY), the Audit Director will expand his selection for testing to
include all NSF subawardees that have not been audited in the last 5 years. Starting in FY 2012
the Audit Director will select for audit the next two auditees which receive the most funding on a
percentage basis that have not received an audit. Starting in FY 2011 all narratives and audit
reports will also list by CFDA number the funds passed through to the entity for the FY under
audit, as well as the percentage of funding. In addition, the Audit Director will perform a risk
analysis of all subawardees.

For Recommendation No. 2 b., Louisiana State University stated that it concurred with the
questioned cost at the University of Illinois. The University of Illinois issued a check to LSU on
September 16, 2010 in the amount of $17,695.92. LSU included a credit on a September 2010
invoice to LBR.

Auditor’s Response

LBR’s comments are responsive to the recommendations. The actions contemplated by the LBR
internal auditor should address Recommendation No. 2a. The credit for the questioned cost on

                                                17
the University of Illinois subcontract, once verified by NSF, should address Recommendation
2b. However, this report finding should not be closed until NSF determines that corrective
actions have been satisfactorily implemented by LBR.

Finding No. 3 – Lack of Documentation of Incurred Costs at Southern University

Southern University could not support a material amount of costs claimed under the LBR first
tier subcontract under NSF Award No.                  We found that Southern University could
not provide adequate documentation supporting personnel costs, related fringe benefits,
participant support costs, and cost sharing claimed under the NSF award. Although Southern
University had detailed procedures for maintaining records supporting costs incurred on
sponsored programs, Southern University could not readily provide accounting documentation to
support costs claimed. As a result, $547,741 of direct and indirect costs and $152,182 of cost
sharing has been questioned.

According to 2 CFR 220 (formerly OMB Circular A-21) personnel costs charged to federal
programs must be supported by payrolls documented in accordance with the generally accepted
practices of colleges and universities. The apportionment of employees’ salaries and wages
which are chargeable to more than one sponsored agreement or other cost objective will be
accomplished by methods which will produce an equitable distribution of charges for employees
activities. The system will provide for independent internal evaluations to ensure the system’s
effectiveness and compliance. Examples of acceptable methods for payroll distribution include:
plan confirmation, after-the-fact activity and multiple confirmation records. In addition,
according to 2 CFR 215.21 (formerly OMB Circular A-110), recipients’ financial management
systems shall provide for: (1) accurate, current and complete disclosure of the financial results of
each federally-sponsored project, (2) records that identify adequately the source and application
of funds including records containing information pertaining to Federal awards, authorizations,
obligations, unobligated balances, asset, outlays income and interest, and, (3) effective control
over and accountability for all funds. Finally, NSF Grant Administration Regulations require
NSF awardees to maintain records, supporting documents, statistical records and other records
pertinent to a grant for at least three years from submission of the final project report.

Southern University could not provide supporting documentation such as time certifications for
personnel costs and related fringe benefits, cancelled checks, invoices, purchase orders or other
documentation for participant support costs, consultant costs, and cost sharing. According to
Southern University officials the supporting documentation was located at various locations
throughout the university and was not readily accessible. However, we requested this
information several weeks before our field work, while we were on site at Southern University,
and after conclusion of the field work we allowed Southern several weeks to send us the
supporting information. However, information provided did not satisfy the documentation
requirements of 2 CFR 220 or the NSF Grant regulations. Following is an explanation of the
questioned cost by cost category:

 Salaries
 The $258,047 of salaries questioned represents salaries and wages not supported by effort
 reports or other supporting documentation. According to 2 CFR 220 Section J (8) (b) personnel
 charges must be supported by documentation that supports the charges to the program.
 Examples of acceptable methods for charging personnel costs to federal awards are plan-
 confirmations, after-the fact activity reports or multiple confirmation records. Although

                                                18
 requested, Southern University officials could not provide documentation to support a material
 portion of cost claimed under the NSF funded subaward with LBR. As a result, we questioned
 the $258,047 claimed under the subcontract, as follows:

                      General                                Amount        Amount                  Reason for
     Category                           Description
                      Ledger #                               Claimed      Questioned            Questioning Cost
                                    Personnel cost                                         Lack of supporting
  Personnel Cost       27248        (Salaries and wages)                                   Documentation or adequate
                                                              $25,093            $13,275   time and effort records.
                                    Personnel cost                                         Lack of supporting
  Personnel Cost       27249        (Salaries and wages)                                   Documentation or adequate
                                                             $476,300           $244,772   time and effort records.
  Total                                                      $501,393           $258,047

Fringe Benefits
The $101,383 questioned represents fringe benefits not supported by adequate documentation as
follows:

                          General                          Amount        Amount                Reason for
       Category                         Description
                          Ledger #                         Claimed      Questioned          Questioning Cost
                                       Fringe                                          Amount not verifiable to
    Fringe Benefits         27248      Benefits per                                    approved rate per invoice.
                                       proposed rate         $3,528         $3,528     No explanation provided
                                       Fringe                                          Amount not verifiable to
    Fringe Benefits         27249      Benefits per                                    approved rate per invoice.
                                       proposed rate        $97,855        $97,855     No explanation provided
    Total                                                  $101,383       $101,383

Participant Support Costs
The $127,412 questioned represents claimed participant support costs for which Southern
University could not provide adequate support. For $127,412 of the $266,032 claimed Southern
University could not provide any type of support. According to 2 CFR 225, C, to be allowable
for a federal grant a cost must be allocable to the federal award and be necessary and reasonable
for the administration and performance of the award.

According to 2 CFR 220 costs incurred and claimed under federal awards must be adequately
supported. Because Southern University officials could not provide us such documentation the
costs were questioned. Following is a summary of the claimed and questioned cost:

                                 General                         Amount            Amount      Reason for questioning
               Category                        Description
                                 Ledger #                        Claimed          Questioned             cost
            Participant                       Stipends and                                     Lack of documentation
                                    27248
            Support Costs                     conferences             $87,412        $87,412
            Participant                       Stipends                                         Lack of documentation
                                    27271
            Support Costs                                         $40,000            $40,000
            Total                                                $127,412           $127,412

Indirect Costs
The questioned indirect costs of          consists of                                and
                    represent the claimed indirect costs applicable to the questioned labor costs
claimed for on General Ledger No. 27249 and 27248. Because the salaries were questioned in
Note 1 above, the corresponding indirect cost is also questioned.


                                                            19
                              General                            Amount             Reason for
            Category                           Description
                             Ledger #                           Questioned       Questioning Cost
         Indirect Cost     27249            Indirect cost per                Indirect cost rate applied
                           (Object 9010)    proposed rate                    to applicable direct
                                                                             salaries questioned.
         Indirect cost     27248            Indirect cost per                Indirect cost rate applied
                                            proposed rate                    to    applicable     direct
                                                                             salaries questioned
         Total

Cost Sharing
The $152,182 questioned represents cost sharing claimed not supported by adequate
documentation. Southern University officials provided us with certifications that added up to
over $1 million for cost sharing for the NSF award. However, the officials could not provide us
with a reconciliation of the $1 million with the $152,182 claimed. Furthermore, they could not
provide any supporting documentation for the certifications provided to indicate the costs were
actually incurred and that the costs were allocable to the NSF award. The cost sharing consisted
of 25% release time for teachers and Southern University’s Institutional Cost sharing for the NSF
award. Southern University provided us with a list of teachers for several years that represented
the 25 % release time which showed $15,000 per year being charged to the cost sharing.
However, Southern University could not provide us support for how the 25% was determined or
what these teachers had to do with the NSF award. Furthermore, Southern University provided
us with Certifications for four years of the award that stated that various amounts of
“documented and estimated” cost sharing ranging from $224,391 to $256,039 was applicable to
the NSF award as Institutional Cost Sharing. Southern University could not provide us any
documentation supporting these amounts. Because Southern University could not provide
documentation to support the cost sharing and could not reconcile the claimed cost sharing we
have questioned the costs in accordance with 2 CFR 220 costs incurred and claimed under
federal awards must be adequately supported and 2 CFR 215 which states that Cost Sharing must
be accounted for in the same manner as direct costs charged to an award.

Southern University had written standard operating procedures for accounting for sponsored
programs entitled “Southern University System, Office of the Comptroller, Standard Operating
Procedures, Unit of Sponsored Programs Accounting”. These procedures were quite detailed
and included procedures that if correctly followed would have provided for adequate
documentation to support the costs incurred under the NSF funded subaward. However, as
discussed above Southern University officials could not provide us adequate documentation to
support a significant amount of the costs claimed under the NSF funded subagreement. As a
result, we have questioned $547,741 of direct and indirect costs and Cost Sharing costs of
$152,182 as follows:

                                                                         Amount
                                     Cost Category
                                                                        Questioned
                     Personnel costs                                        $258,047
                     Fringe Benefits                                        $101,383
                     Participant Support Costs                              $127,412
                     Indirect Costs
                     Total Direct and Indirect Costs
                     Cost Sharing                                            $152,182
                     Total Cost and Cost Sharing Questioned                  $699,923


                                                     20
The inability of Southern University to access documentation supporting a large portion of its
NSF funded sub agreement with LBR represents a serious internal control weakness. All
federally funded grantees should have ready access to accounting documentation support for
costs claimed under federal awards. Had the extensive standard operating procedures been
performed by Southern University personnel the documentation requested should have been
available. Without such documentation there was no assurance that the amounts claimed under
the NSF funded subaward with LBR were reasonable, allowable, or actually incurred.

Southern University’s inability to obtain and maintain adequate supporting documentation
affects its ability to support and report claimed costs under the NSF award and increases the risk
that some of the costs claimed by Southern University may be unallowable, unreasonable, or not
allocable to the NSF award. We questioned $547,741 of direct cost and indirect costs, and
$152,182 of cost share claimed.

Recommendation No. 3:

We recommend that NSF’s Director of the Division of Institution and Award Support address
and resolve the following recommendation made to LBR:

   a) Require Southern University to comply with its existing policies and procedures to ensure
      that all claimed costs including cost sharing, personnel costs, participant support, and
      consultant cost claimed are supported with adequate and sufficient documentation,

   b) Recover the $547,741 of questioned direct and indirect costs and return it to NSF, and

   c) Obtain adequate documentation supporting the $152,182 of costs share claimed or
      disallow it.

Awardee Comments

LBR and Southern University disagreed with the questioned costs. LBR stated that it had
reviewed the financial information that Southern University maintains for this award. According
to LBR it reviewed the financial information that Southern maintained and stated that it supports
the invoices that Southern University had submitted to the LBR for reimbursement from the NSF
funded subaward. The response states that LBR and Southern University will provide
documentation at the time of audit resolution. According to LBR’s response Southern University
had Personnel Action forms, time sheets and copies of the pay history record for the employees
whose salaries and related fringes were questioned. In addition, the LBR response cited a
passage from Southern University’s annual report submitted to the NSF FastLane system for the
period 11/2005 to 11/2006. According to Southern and LBR this statement was support for the
participant support and how the students participated and benefitted the NSF funded subaward.




                                               21
Auditor’s Response

Southern University did not provide our audit team documentation that adequately supported the
salaries and related fringe benefits charged to the NSF funded subaward. Although requested in
person during the field work and after we returned to our home base we were never provided
with documentation such as time and effort reporting or similar information to support the
amounts claimed. Documentation was not available to trace the salaries and benefits to the
invoices submitted to LBR. Documentation for salaries only showed distributions to a
department not to the NSF funded subaward. In regard to the participant support costs we were
provided a list of names, supposedly students, with amounts that were paid to them. No where in
the information provided or in the accounting system was there support for what activities these
individuals performed that benefited the NSF funded subaward. It was much the same for the
Cost Sharing. The information provided did not adequately support the $152,152 in cost share
claimed. In regard to the questioned indirect costs, the                  questioned resulted from
applying the claimed indirect cost rated to the questioned salaries. Accordingly, since we did not
receive any new information concerning the questioned cost at Southern with LBR’s response,
the costs questioned in the draft report will remain questioned in the final report. We continue to
recommend that the NSF’s Director of the Division of Institution and Award Support address
and resolve the above recommendations. This report finding should not be closed until NSF
determines that corrective actions have been satisfactorily implemented by LBR.

Finding No. 4 – Unallowable Charges Claimed

LBR charged $14,230 to the NSF Award No.                for expenses not applicable to NSF
award and expenses paid with grant funds for unused equipment. We found that LBR had
charged $11,953 to the NSF award that should have been paid with State funds. Also, $2,277
was paid for computer equipment that was not used during the grant period. As a result, the
$14,230 has been questioned.

According to 2 CFR 225, C, to be allowable for a federal grant a cost must be allocable to the
federal award and be necessary and reasonable for the administration and performance of the
award.

We found that LBR claimed salary costs for expenses that should have been paid from State
funds. In reconciling LSU’s claimed costs, LSU indicated that invoiced costs of $11,953 were
inadvertently paid by the LBR under the Grant No.                  . LSU submitted two invoices
(numbers                                      ) to the LBR for the State portion of the EPSCoR’s
Project Director’s salary. The contract between LSU and LBR provided that the EPSCoR’s
Project Director’s salary and fringes were to be funded as follows: 50 percent NSF, 25 percent
state, and 25 percent LSU. LSU indicated on the invoices that the invoice should have been paid
with the state’s 25 percent portion of funds. However, the invoices were inadvertently paid and
claimed under Award No.                    . Accordingly, we have questioned the erroneous
claimed costs of $11,953.

In addition, we noted that some equipment purchased under Award No                    was still in
original boxes even though the NSF award had been completed since March 31, 2008. We found
11 excess speakers at $129 per speaker totaling $1,419. In total, sixty duet microphone speakers
were purchased to be used with the video conferencing equipment that was approved by NSF via
amendment 6 on December 27, 2007. We also noted 12 excess Quick Cam Pro Web Cameras at

                                                22
still in original boxes that cost $71.49 per unit totaling to approximately $858. The microphone
speakers plus the web cameras were needed as an integral part of the system. However, 11 of the
speakers were not given out to university researchers. At the time of the purchase, the LBR did
not know exactly how many speakers were needed. Consequently, only 49 of the speakers were
handed out to the universities that had video conferencing software and equipment. The LBR
told us that the 11 excess speakers will eventually be given out as new researcher start using the
video conferencing. However, no documentation was provided supporting this statement. Any
excess materials, supplies, or equipment on hand more than 2 years after the grant period expired
are in our view unnecessary for administrating the grant. As a result we questioned $2,277
($1,419 + $858) expended on this unused equipment.

Recommendation No 4:

We recommend the that Director of the Division of Institution and Award Support address and
resolve the following recommendation made to LBR:


   a) Refund the $11,953 mistakenly charged to the NSF award, and

   b) Determine and document a use for the unused equipment that is consistent with the
      objectives of the EPSCoR award, or refund the $2,277 to NSF.

Awardee Comments

LBR stated that it mistakenly charged the $11,953 to NSF because of a typographical error.
Accordingly, LBR agreed with Recommendation No. 4a and will refund the $11,953 to NSF.

In regard to the Recommendation No. 4b, LBR stated that it will distribute the remaining
microphone/speakers to participants of the current NSF EPSCoR award,                   pending
audit resolution.

Auditor’s Response

LBR’s comments are responsive to the recommendations.                  Since LBR agrees with
Recommendation 4a, it will be addressed once LBR credits NSF for the $11,953. In regard to
Recommendation 4b, it will remain and can’t be resolved until the NSF program agrees that
microphones/speakers are properly utilized. However, this report finding should not be closed
until NSF determines that corrective actions have been satisfactorily implemented by LBR.

OTHER OBSERVATIONS

The following two issues were noted during the audit that need to be addressed by LBR and
NSF.

Expenditures for Award No.

During the course of the audit we noted that LBR had only expended $915,788 of the $2,593,956
awarded under Award No.                   hrough September 30, 2009, the end of our audit
period. Because the award period was through March 31, 2010, LBR was asked on several

                                               23
occasions the reason why over $1.6 million of the award had not been expended with so little
time left in the award budget period. In addition, we are aware that according to NSF’s records,
NSF increased the award by $26,303 to a total of $2,620,259 in 2010 and extended the end
award period date to July 31, 2011. The amount expended on the award, according to NSF’s
Federal Financial Report from LBR, as of December 31, 2010 was $1,688,768.56. Since the
entire award was subawarded to the Louisiana State University, LBR needs to determine if the
programmatic objectives are being met in a timely manner; determine why there are differences
in the amounts of claimed costs as of December 31, 2010 between its and NSF’s records; and if
the unexpended portion of the award will be needed or if it can be returned to NSF. NSF should
follow up during audit resolution to determine if these issues are properly addressed.

Awardee Response:

According to LBR’s response the Louisiana State University had difficulty hiring the very
specialized personnel for this project. In addition, because of the state budget crisis retaining and
promoting the individuals needed for this project was difficult. LBR stated that through
December 31, 2010, $1,723,478 of the $2,620,259 awarded or 66 percent has been expended.

Final Federal Financial Report for Award No.

LBR only claimed a total of $8,928,286 through its final Federal Financial Report as the Federal
Share of Net Disbursements as of the quarter ended March 31, 2008. However, according to
LBR’s accounting records, LBR actually incurred and received $8,931,273 from the NSF Fast
Lane system which was $2,987 less than the claimed amount. However, NSF closed out the
award on March 24, 2008 by de-obligating $271,714 from the original award for a net award
amount of $8,928,286. As a result, LBR received $2,987 in advance more than the net award
costs. The difference of $2,987 needs to be resolved. Since the audit period had ended the
auditor was not able to verify the response received from LBR. Documentation supporting
LBR’s explanation should be provided to NSF during its audit resolution period.

Awardee Response:

LBR stated that because of refunds received before and after the award period, LBR only
claimed $8,928,286 for Award No.             on its final Federal Financial Report.

This report is intended solely for the information and use of LBR’s management, and LSU and
Southern University officials selected by LBR, the National Science Foundation, LBR’s
cognizant federal agency and is not intended to be, and should not be used by anyone other than
these specified parties.




Foxx & Company
Cincinnati, Ohio
January 19, 2011



                                                 24
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
                                                                                                         SCHEDULE A-1
                                            Louisiana Board of Regents
                             National Science Foundation Award Number
                                              Schedule of Award Costs
                                          May 15, 2004 to March 31, 2008
                                                       Final

                                                                              Claimed
                           Approved     Claimed      Reclassification        Costs After        Questioned    Schedule
     Cost Category          Budget      Costs (A)      Of Costs (B)        Reclassification       Costs       Reference
Direct costs:
 Salaries and wages        $1,152,173    $ 83,319     $        (314,260)    $        669,059    $   566,098   B-1, Note 1
 Fringe benefits              197,948     262,540               (94,723)             167,817        146,578   B-1, Note 1
 Equipment                     31,130     373,245                      -             373,245              -
 Travel                        58,000     206,206                      -             206,206              -

 Other direct costs:
   Material and supplies       43,000      37,917                      -              37,917          2,277   B-1, Note 2
   Consultant services        125,000      91,994                      -              91,994              -
   Subawards                7,310,113
     LSU                                 6,377,700              408,983             6,786,683        11,953   B-1, Note 3
     Others                                569,469                    -               569,469

 Other direct costs          282,636       28,883                      -              28,883              -

    Total direct costs     $9,200,000   $8,931,273        $            -     $      8,931,273   $   726,906

Costs incurred in excess
of claimed costs                    -      (2,987)                     -              (2,987)             -

    Total                  $9,200,000   $8,928,286        $            -        $   8,928,286   $ 726,906

Cost Sharing               $4,500,000   $4,719,031        $            -        $   4,719,031   $         -


(A) The total claimed costs agree with the total expenditures reported by the LBR on the Federal
    Financial Report - Federal Share of Net Disbursements as of the quarter ended March 31, 2008.
    LBR only claimed a total of $8,928,286 through its final FFR. However, according to LBR’s
    accounting records, LBR actually incurred and received $8,931,273 from the NSF Fast Lane system
    which is $2,987 less than the claimed amount. Accordingly, we have adjusted the claim amount by
    the $2,987.

(B) We have reclassified costs claimed in object classes 4910, 4920, and 4930 to subawards because the
    costs represent labor and fringe benefits for an employee on detail from the Louisiana State
    University (LSU) under a subaward to the LBR. The costs were included in LSU's claim.

See Accompanying Notes to Financial Schedules




                                                          25
                                                                                                  Schedule A-2


                                              Louisiana Board of Regents
                              National Science Foundation Award Number
                                               Schedule of Award Costs
                                       November 1, 2005 to September 30, 2009
                                                       Interim

                                         Approved        Claimed         Questioned      Schedule
              Cost Category               Budget         Costs (A)         Costs         Reference

         Direct costs:
          Salaries and wages            $          -                 -             -
          Fringe benefits                          -                               -
          Equipment                                -                               -
          Travel                              12,000                 -             -
          Participant support                      -                               -
          Other direct costs:
         Material and supplies                      -                              -
         Publication cost                           -                              -
         Consultant services                        -
          Subawards                         5,135,000
                LSU                                       2,816,882                -
         Southern University                              1,336,330          547,741   Schedule C-1
                Others                                      194,322                -

         Other direct costs                         -                -             -

             Total direct costs         $ 5,147,000     $ 4,347,534      $   547,741

                    Total               $ 5,147,000     $ 4,347,534      $   547,741

         Cost Sharing                   $ 2,000,000     $ 3,444,439      $   152,182   Schedule C-1




(A) The total claimed costs agree with the total expenditures reported by the LBR on the Federal
    Financial Reports for the quarter ended September 30, 2009. Claimed costs reported above were
    taken directly from LBR's books of accounts.

See Accompanying Notes to Financial Schedules




                                                        26
                                                                                                                   Schedule A-3

                                               Louisiana Board of Regents
                                National Science Foundation Award Number
                                                 Schedule of Award Costs
                                          October 1, 2007 to September 30, 2009
                                                         Interim

                                                                                      Claimed
                             Approved
                                              Claimed         Reclassification      Costs After       Questioned    Schedule
                              Budget
     Cost Category                            Costs (A)        Of Costs (B)        Reclassification     Costs       Reference
Direct costs:
 Salaries and wages             $851,445      $ 739,659           $    (157,387)    $      582,272     $ 472,947 B-1,Note 1
 Fringe benefits                 177,290        196,364                 (52,720)           143,644       119,660 B-1,Note 1
 Equipment                                                                                       -             -
 Travel                            32,000         47,872                       -            47,872             -
  Participant support                                                                            -             -
 Other direct costs:                                                                             -             -
    Material and supplies          34,464         11,060                       -            11,060             -
    Publications costs                                                                           -             -
    Consultant services           122,000         98,431                       -            98,431             -
    Subawards                   3,324,261
       LSU                                     2,435,552                210,107          2,645,659             -
       Others                                    840,641                      -            840,641             -
 Other direct costs             1,458,540         35,992                      -             35,992             -

    Total direct costs      $ 6,000,000       $4,405,571      $                -    $    4,405,571     $ 592,607

Indirect costs                            -               -                    -                  -            -

    Total                   $ 6,000,000       $4,405,571      $                -    $    4,405,571     $ 592,607


 (A) The total claimed costs agree with the total expenditures reported by the LBR on the Federal
     Financial Reports for the quarter ended September 30, 2009. Claimed costs reported above were
     taken directly from LBR's books of accounts.

 (B) We have reclassified costs claimed in object classes 4910, 4920, and 4930 to subawards because the
     costs represent labor and fringe benefits for an employee on detail from the Louisiana State
     University (LSU) under subaward to LBR. The costs have been included in LSU's claim.

 See Accompanying Notes to Financial Schedules




                                                                  27
                                                                                         SCHEDULE A-4
                                            Louisiana Board of Regents
                             National Science Foundation Award Number
                                              Schedule of Award Costs
                                       October 1, 2007 to September 30, 2009
                                                      Interim

                                        Approved         Claimed          Questioned        Schedule
              Cost Category              Budget          Costs (A)          Costs           Reference

         Direct costs:
          Salaries and wages            $       -         $          -         $     -
          Fringe benefits                       -                                    -
          Equipment                             -                                    -
          Travel                                -                    -               -
          Participant support                   -                                    -
          Other direct costs:                   -
             Material and supplies              -                                    -
             Publication cost                   -                                    -
             Consultant services                -                                    -
             Subawards LSU             $2,593,956            $915,788          $17,696     B-1, Note 4
                Other direct costs              -                   -                -

             Total direct costs        $2,593,956            $915,788          $17,696

         Indirect cost                  $        -           $       -               -

             Total                     $2,593,956            $915,788          $17,696




(A)   The total claimed costs agree with the total expenditures reported by the LBR on the Federal
      Financial Reports for the quarter ended September 30, 2009. Claimed costs reported above were
      taken directly from LBR’s books of accounts.


See Accompanying Notes to Financial Schedules.




                                                        28
                                                                                 Schedule B-1
                             LOUISIANA BOARD OF REGENTS
                               BATON ROUGE, LOUISIANA
                                      AUDIT OF
                            NATIONAL SCIENCE FOUNDATION
          AWARD NOs.
                               Notes to the Schedules of Award Costs

Note 1:    We have questioned $1,305,283 of labor and related benefits claimed because of an
           inaccurate allocation of salaries and related fringe benefit costs and the improper
           documentation to support labor charges for staff working on more than one project, as
           discussed in Finding No. 1 of the internal control and compliance report. The claimed
           and questioned costs by grant are detailed as follows:

           Award No.                          Claimed Costs
                                              Salary     Fringes Total     Note
                                               $669,059 167,817   $836,876
           Less:
           Employee’s 4 Salary and benefits    (102,961) (21,239)    (124,200)    1b
           Questioned                          $566,098 $146,578     $712,676     1a
                                                 582,272 143,644       725,916
           Less:
           Employee 4 salary and benefits        (90,710) (18,715) (109,425)      1b
           Employee 5 salary and benefits        (18,615)  (5,269)   (23,884)     1b
           Questioned                           $472,947 $119,660   $592,607      1a
            Total                             $1,039,045 $266,238 $1,305,283


          a.   The $712,676 questioned on Award No.                            and the $592,607
               questioned on Award No.                      represent salaries and related fringe
               benefits claimed for individuals charging to the EPSCoR awards that worked on
               multiple projects besides EPSCoR for which LBR could not provide adequate
               support. According to 2 CFR 225 state and local governments are required to
               have a time and effort reporting system for individuals who work on multiple
               projects which adequately allocates the costs incurred to the projects being
               worked on. As discussed in Finding No. 1 included in the Internal Control and
               Compliance report, only two individuals charging time to the awards were
               working 100 percent on the EPSCoR awards. These two individuals completed
               semi-annual certifications verifying that they were working a 100 percent of their
               time on the NSF EPSCoR awards. As a result, we accepted the claimed costs for
               these two individuals, see 1b below. Following are the details of the questioned
               personnel and related fringe costs:




                                                29
       Award No.
         Salaries and                                             Note
           Fringes

        Employee No. 1           $125,307       $173,672
       Employee No. 2            $173,414        104,465
       Employee No. 3             $ 69,874        70,887
       Employee No. 6            $175,344        157,044
       Employees no
       longer at LBR
       Employee No. 7            $130,878         74,671 Not at LBR*
       Employee No. 8             $18,723                 Not at LBR*
       Employee No. 9              $9,201                 Not at LBR*
       Employee No. 10                 $0        $13,323   Not at LBR*
       Employee No. 11            $ 2,634           1,851 Not at LBR*
       Misc. Employees               $696                 Not at LBR*
       Unexplained Amt.            $6,605         (3,306)
         Total Questioned        $712,676       $592,607   $1,305,283

     *These employees were not at LBR when we performed the substantive part of the audit, so we
     could not interview or request a listing of what projects they worked on. The amounts charged
     by these individuals are questioned because they did not prepare time and effort reporting in
     accordance with 2 CFR 225.


     LBR claimed $6,605 more than was on the payroll reports for the
     and claimed $3,306 less than was on the payroll reports for              We
     only accepted the salaries and related fringe benefits for the two program
     associates discussed in (b) below. The remaining claimed costs of $1,305,283
     have been questioned.

b.   We interviewed two EPSCoR program associates and based on evidence provided
     the two worked only on the NSF EPSCoR grants. According to our interviews
     and their written statements they did not work on any other federal grant and have
     not prepared or assisted in preparing any grant proposals. Accordingly, all time
     charged by these two individuals to the two NSF EPSCoR grants is considered
     allowable.     The labor and fringes claimed under the two grants for both
     employees of $257,509 has been accepted, is summarized as follows:

       Description       Grant                Salary   Fringes Total
       Employee 4                             $102,961 $21,239 $124,200
       Employee 4                               90,710  18,715 109,425
       Employee 5                                    0        0       0
       Employee 5                               18,615    5,269  23,884
        Total                                 $212,286 $45,223 $257,509

     These amounts have been deducted from the amount claimed by LBR for salaries
     and related fringe benefits and are accepted.


                                         30
Note 2:    Based on our transaction testing, we have questioned claimed materials and supplies
           costs of $2,277. The questioned costs are detailed as follows:

                     Description                           Questioned Note
                     Excess Microphone Speakers                 $1,419    a.
                     Excess Quick Cam Pro Web Cameras              858    b.
                      Total                                     $2,277

          a.   The questioned costs of $1,419 represent 11 excess speakers at $129 per speaker.
               Under the basic guideline of 2 CFR Part 225, to be allowable under Federal
               awards, costs must be necessary and reasonable for the proper and efficient
               performance and administration of Federal awards. The grant period for grant
                              expired on March 31, 2008. Any excess materials, supplies, or
               equipment on hand more than two years after the grant period expired are in our
               view unnecessary for administrating the grant. In total, sixty duet microphone
               speakers were purchased for $7,740 ($129 per unit) to be used with the video
               conferencing equipment that was approved by NSF via amendment 6 on
               December 27, 2007. The microphone speakers plus the web cameras (discussed
               below in (b)) were needed as an integral part of the system. However, 11 of the
               speakers were not given out to university researchers. At the time of the
               purchase, the LBR did not know exactly how many speakers were needed.
               Consequently, only 49 of the speakers were handed out to the universities that had
               video conferencing software and equipment. The LBR told us that the 11 excess
               speakers will eventually be given out as new researcher start using the video
               conferencing. However, no documentation was provided supporting this
               statement.

          b.   The questioned costs of $858 represent 12 excess Quick Cam Pro Web Camera at
               $71.49 per unit. Sixty cameras were purchased for $4,289.40 to be used with the
               video conferencing equipment as discussed in (a) above. However, 12 of the
               cameras were not handed out for the reasons discussed in (a) above. Accordingly,
               we questioned $857.88 rounded to $858 (12 x $71.49) for the 12 cameras for the
               reasons discussed above in (a).

Note 3:    In reconciling LSU’s claimed costs, LSU indicated that invoiced salary costs of
           $11,953 were inadvertently paid by the LBR under the Grant No.                     LSU
           submitted two invoices (numbers                                       ) to the LBR for
           the State portion of the EPSCoR’s Project Director’s salary. The contract between
           LSU and LBR provided that the EPSCoR’s Project Director’s salary and fringes were
           to be funded as follows: 50 percent NSF, 25 percent state, and 25 percent LSU. LSU
           indicated on the invoices that the invoice should have been paid with state’s 25 percent
           portion of funds. However, the invoices were inadvertently paid and claimed under
           Award No.                    Accordingly, we have questioned the erroneous claimed
           costs of $11,953.

Note 4:    The University of Illinois (U of I) invoiced LSU $173,287 for subcontract services
           rendered from October 1, 2007 through January 31, 2009. However, the portion of the
           invoice for salary and fringe benefits exceeded 20 percent of the total budgeted salary

                                                31
line items. According to the subaward, prior written approval from LSU’s Principle
Investigator and authorized official was required when a budget line item was
exceeded by 20 percent. We found no indication that the prior written approval was
obtained. We subsequently notified LSU of the above issue, and LSU’s responded in
a September 14, 2010 email and agreed that the U of I exceeded the budget categories
for salaries and fringe benefits. Consequently, LSU notified the U of I of this situation
and the U of I issued a refund check for $17,696 to LSU. Based on the above, we
have questioned the $17,696 amount as unauthorized costs in excess of 20 percent of
the subcontract budget.




                                      32
                                                                                      Schedule C-1

                                     Louisiana Board of Regents
                                     Baton Rouge, Louisiana
                      National Science Foundation Award No.
                            Southern University Subaward with LBR
                                   Schedule of SubAward Costs
                            November 1, 2005 to September 30, 2009
                                             Interim



                                                                                       Schedule
                                   Approved            Claimed       Questioned
         Cost Category                                                                 Reference
                                    Budget             Costs (A)       Costs
                                                                                        to D-1
Direct costs:
  Salaries and wages                   $673,697           $501,393       $258,047      D-1,Note 1
  Fringe Benefits                       190,552            101,383        101,383      D-1,Note 2
  Equipment                                   -                  -              -
  Travel                                 58,529             40,446              -
  Participant support                   331,930            266,032        127,412      D-1,Note 3
  Other direct costs:
       Material and supplies             30,291             23,433                -
       Publication costs                 39,992             29,401                -
       Consultant services              378,763            261,750                -
       Subawards                              -                  -                -
       Other direct costs                     -                 85                -

           Total direct costs      $1,703,754           $1,223,923       $486,842

  Indirect costs                   $                                     $ 60,899      D-1,Note 4

      Total                                                              $547,741

Cost Sharing                       $ 152,182,           $ 152,182        $152,182      D-1,Note 5




                                                  33
                                                                                       Schedule D-1

                                 Louisiana Board of Regents
                                   Baton Rouge, Louisiana
                    National Science Foundation Award No.
                          Southern University Subaward with LBR
                                    Notes to Schedule C-1



Note 1: The $258,047 questioned represents salaries and wages not supported by effort reports
        or other supporting documentation. According to 2 CFR 220 Section J (8) (b)
        personnel charges must be supported by documentation that supports the charges to the
        program. Examples of acceptable methods for charging personnel costs to federal
        awards are plan-confirmations, after-the fact activity reports or multiple confirmation
        records. Although requested, Southern University officials could not provide
        documentation to support a material portion of costs claimed under the NSF funded
        subaward with LBR. As a result, we questioned the $258,047 claimed under the
        subcontract.

         Category          General   Description      Amount     Amount       Reason for questioning
                           Ledger                     Claimed    Questioned   cost
                           No.
         Personnel Cost    27248     Personnel        $25,093    $13,275      Lack of supporting
                                     cost                                     Documentation or effort
                                     (Salaries and                            reporting records.
                                     wages)
         Personnel Cost    27249     Personnel        $476,300   $244,772     Lack of supporting
                                     cost                                     Documentation or
                                     (Salaries and                            adequate effort reporting
                                     wages)                                   records.
         Total                                        $501,393   $258,047

Note 2: The $101,383 of fringe benefits claimed was questioned because of a lack of supporting
        documentation.

         Category          General   Description      Amount     Amount       Reason for questioning
                           Ledger                     Claimed    Questioned   cost
                           No.
         Fringe Benefits   27248     Fringe           $3,528     $3,528       Amount not verifiable to
                                     Benefits per                             approved rate per
                                     proposed                                 invoice. No explanation
                                     rate                                     provided
         Fringe Benefits   27249     Fringe           $97,855    $97,855      Amount not verifiable to
                                     Benefits per                             approved rate per
                                     proposed                                 invoice. No explanation
                                     rate                                     provided
         Total                                        $101,383   $101,383

Note 3: The $127,412 questioned represents claimed participant support for which Southern
        University could not provide adequate support. Southern University only provided us a
        spreadsheet with names of students and amounts paid. Documentation such as time and

                                                 34
         effort reports were not provided to show how the individuals benefited the NSF funded
         subaward. According to 2 CFR 215.21(b) (7). costs incurred and claimed under federal
         awards must be supported by accounting records supported by source documentation.
         Because Southern University officials could not provide us such documentation the
         costs were questioned. Following is a summary of the claimed and questioned cost:

         Category        General     Description     Amount       Amount         Reason for questioning
                         Ledger #                    Claimed      Questioned     cost
         Participant     27248       Stipends and    $87,412      $87,412        Lack of documentation
         Support Costs               conferences
         Participant     27271       Stipends        $40,000      $40,000        Lack of documentation
         Support Costs
         Total                                       $127,412     $127,412



Note 4: The questioned indirect costs of           consisting of
        and                             represent the claimed indirect costs applicable to the
        questioned labor costs claimed on General Ledger Nos. 27248 and 27249. Because the
        salaries were questioned in Note 1 above, the corresponding indirect cost is also
        questioned.

         Category        General     Description     Amount       Reason for questioning
                         Ledger #                    Questioned   cost
         Indirect Cost   27249       Indirect cost                Indirect cost rate applied
                                     per proposed                 to applicable direct
                                     rate                         salaries questioned.
         Indirect Cost   27248       Indirect cost                Indirect cost rate applied
                                     per proposed                 to applicable direct
                                     rate                         salaries questioned.
         Total

Note 5: The $152,182 questioned represents cost sharing claimed not supported by adequate
        documentation. Southern University officials provided us with certifications that added
        up to over $1 million for cost sharing for the NSF award. However, the officials could
        not provide us with a reconciliation of the $1 million with the $152,182 claimed.
        Furthermore, they could not provide any supporting documentation for the
        certifications provided to indicated the costs were actually incurred and that the costs
        were allocable to the NSF award. The cost sharing consisted of 25 percent release time
        for teachers and Southern University’s Institutional Cost sharing for the NSF award.
        Southern University provided us with a list of teachers for several years that
        represented the 25 % release time which showed $15,000 per year being charged to the
        cost sharing. However, Southern University could not provide us support for how the
        25 % was determined or what these teachers had to do with the NSF award.
        Furthermore, Southern University provided us with Certifications for four years of the
        award that stated that various amounts of “documented and estimated” cost sharing
        ranging from $224,391 to $256,039 was applicable to the NSF award as Institutional
        Cost Sharing. Southern University could not provide us any documentation supporting
        these amounts. Because Southern University could not provide documentation to
        support the cost sharing and could not reconcile the claimed cost sharing we have
        questioned the costs in accordance with 2 CFR 215 which states that Cost Sharing must
        be accounted for in the same manner as direct costs charged to an award.

                                                35
                                                                                  Schedule E-1

    NATIONAL SCIENCE FOUNDATION AWARD NOS.

          SUMMARY SCHEDULES OF AWARDS AUDITED AND AUDIT RESULTS
                      MAY 15, 2004 to SEPTEMBER 30, 2009

         Summary of Awards Audited

                   Grant and Cooperative
                        Agreement               Audit Period            Award Period
                                             05/15/04 - 03/31/08     05/15/04 - 03/31/08
                                             11/01/05 - 09/30/09     11/01/05 - 10/30/10
                                             10/01/07 - 09/30/09     10/01/07 - 09/30/10
                                             10/01/07 - 09/30/09     10/01/07 - 03/31/10



                                                        Award Description
                   Type of Award
                                            Louisiana’s Research Infrastructure
                   Research Grant           Improvement Strategy – EPSCOR
                                            Experimental Program to Stimulate
                                            Competitive Research
                                            Louis Stokes Louisiana Alliance for
                   Cooperative Agreement    Minority Participation
                                            Louisiana’s Research Infrastructure
                   Research Grant           Improvement Strategy _ EPSCOR
                                            (Continuation Award for
                                            High Performance Computing for Science
                   Cooperative Agreement    and Engineering Research and Education



         Summary of Questioned and Unsupported Costs by Award

                                                                                            Cost Sharing
   NSF Award                                                                  Unsupported      Costs
    Number           Award Budget      Claimed Costs     Questioned Costs        Costs       Questioned
                        $9,200,000         $8,928,286              $726,906      $726,906                  -
Cost share              $4,500,000         $4,719,031                     -                                -
                        $5,147,000         $4,347,534              $547,741      $547,741
Cost share              $2,000,000         $3,444,439                                            $152,182
                        $6,000,000         $4,405,571           $592,607         $592,607
                        $2,593,956           $915,788            $17,696
Totals                                                        $1,884,950       $1,867,254        $152,182




                                                  36
Summary of Questioned Cost by Explanation

                                                                Internal
                Condition                     Questioned        Control
                                             Cost Amount       Weaknesses     Non-Compliance
Incorrect support for salary and fringes        $1,305,283         X                X
Lack of documentation for salary at a
subawardee                                       $258,047             X              X
Lack of documentation for fringe benefits
tested at a subawardee                           $101,383             X              X
Lack of documentation for Participant
Support at a subawardee                          $127,412             X              X
Applicable indirect costs to questioned
salary claimed by subawardee                        $60,899           X              X
An ineligible state expenditure charged to
the NSF award by the awardee                        $11,953           X              X
Unused and unnecessary equipment charged
to the NSF award by LBR                              $2,277           X              X
Subaward costs recovered from a
subawardee for exceeding a budget without
approval                                           $17,696            X              X
Total Questioned Costs                          $1,884,950
cost sharing charged to a subawardee not
supported by adequate documentation              $152,182             X              X

Summary of Internal Control Weaknesses and Non-Compliance Issues

                               Internal
                                               Material                      Amount of NSF
                              Control or                      Significant
        Condition                              Weakness                     Claimed/ Incurred
                                 Non-                         Deficiency
                                                                              Costs Affected
                              Compliance
Improvements to the            Internal
Internal Controls Over        Control and
Labor Reporting Effort           Non-
Are Needed                    Compliance
                                                    X                          $1,305,283
Monitoring of Subawards        Internal
Needs Improvement             Control and
                                 Non-
                              Compliance
                                                                  X            $15,960,542
Lack of Documentation of       Internal
Incurred Costs at Southern    Control and
University                       Non-
                              Compliance            X                          $1,336,330
Unallowable Charges            Internal
Claimed                       Control and
                                 Non-
                              Compliance                          X              $17,696




                                               37
                         LOUISIANA BOARD OF REGENTS
                      NOTES TO THE FINANCIAL SCHEDULES
                       From May 15, 2004 to September 30, 2009

Note 1: Summary of Significant Accounting Policies

        Accounting Basis
        The accompanying financial schedules have been prepared in conformity with National
        Science Foundation (NSF) instructions, which are based on a comprehensive basis of
        accounting other than generally accepted accounting principles. Schedules A-1 through
        A-4 have been prepared by LBR from the Federal Financial Reports (FFRs) submitted
        to NSF and LBR’s accounting records. The basis of accounting utilized in preparation
        of these reports differs from generally accepted accounting principles. The following
        information summarizes these differences:

         A. Equity
             Under the terms of the awards, all funds not expended according to the award
             agreements and budgeted at the end of the award period are to be returned to NSF.
             Therefore, the awardee does not maintain any equity in the award and any excess
             cash received from NSF over final expenditures is due back to NSF.

         B. Inventory
             Minor materials and supplies are charged to expense during the period of
             purchase. As a result, no inventory is recognized for these items in the financial
             schedules.

          C. Equipment

             Equipment is charged to expense in the period during which it is purchased
             instead of being recognized as an asset and depreciated over its useful life. As a
             result, the expenses reflected in the Schedules of Award Costs include the cost of
             equipment purchased during the period rather than a provision for depreciation.

             Except for awards with nonstandard terms and conditions, title to equipment
             under NSF awards vests in the recipient, for use in the project or program for
             which it was acquired, as long as it is needed. The recipient may not encumber
             the property without approval of the federal awarding agency, but may use the
             equipment for its other federally sponsored activities, when it is no longer needed
             for the original project.

          D. Income Taxes

              LBR is a government agency and does not pay income taxes.




                                             38
Note 2: Indirect Cost Rates - The LBR has federally approved indirect cost rates but the LBR
        did not budget or request indirect costs under the NSF grants in the scope of the audit.

Note 3: The departure from generally accepted accounting principles allows NSF to properly
        monitor and track actual expenditures incurred by LBR. The departure does not
        constitute a material weakness in internal controls.




                                               39
ATTACHMENT A – AWARDEE’S
  COMMENTS TO REPORT
                                                              ATTACHMENT A



Sent: Wednesday, March 23, 2011 5:56 PM

                                                                        ;
'bmccainj@nsf.gov'
Subject: Response to Audit Report - Louisiana Board of Regents

Dear

Attache                                                        port for NSF
awards

We request that this report not be issued until we have the opportunity to
have a face-to-face meeting with Foxx and Company to discuss and provide
documentation to support our response. It this is not a option under your
process, we look forward to resolving the differences during audit
resolution.

The response is in PDF format.   If you need additional information, please
let me know.

Thanks,




                                       40
41
42
43
44
45
46
47
48
49
50
51
52
53
54
55
56
57
58
59
60
61
62
63
ATTACHMENT B – STATUS OF PRIOR
      REVIEW FINDINGS
                                                                            ATTACHMENT B


STATUS OF PRIOR REVIEW FINDINGS

A previous OIG audit, a NSF 2004 Financial Administrative Site Visit, and an OMB Circular A-
133 Audit identified concerns. We performed procedures to determine whether these issues had
been resolved.

OIG’s 1998 Audit.

The OIG audit questioned the cost for equipment not authorized in the budget and over-
allocation of indirect costs. It also disclosed internal control findings regarding the LBR’s
financial management system. LBR did not adequately record subcontract costs by NSF-
approved budget line item; the financial management system did not adequately account for
participant support at the subawardee level; and the payroll system did not adequately track
performance. The current NSF awards do not have indirect costs included in the grant budget
and the equipment purchases are immaterial. According to NSF’s resolution memorandum dated
November 4, 1998, all issues were satisfactorily resolved. However, even though LBR revised
its time keeping system, it adopted incorrect procedures. LBR adopted procedures which are for
universities not state agencies. Because LBR is a state agency the provisions of 2 CFR Part 225
apply these regulations require the awardee to use time and effort reporting system for personnel
working more than one program. (See the finding on salary and wages at LBR under finding
number 1 in the report on internal controls and compliance.)

NSF’s 2004 Financial Administrative Site Visit

The site visit determined that LBR was unable to present time and effort labor reports for its
employees. Therefore, LBR needed to develop written policies and procedures for timekeeping.
Also, the LBR did not have a system in place to review and verify the allowability of sub
awardee cost sharing. Accordingly, the NSF recommended that the LBR develop written
policies and procedures for cost sharing and aggressively monitor the cost sharing progress of
subawardee universities to ensure that requirements are being met. In addition, LBR did not
have policies and procedures for subawardee monitoring and did not perform monitoring visits at
any of its partnering institutions. Hence, the NSF recommended that LBR develop applicable
written policies and procedures. LBR did strengthen its subawardee monitoring by establishing
policies and procedures on monitoring cost sharing and matching through the use of internal
auditors. LBR uses the LBR internal auditor to periodically review costs incurred at
subawardees. However, for NSF funded subawardees only LSU subawards were reviewed on
site. See Finding No. 2. Also, LBR revised its time reporting in accordance with 2 CFR 220
(OMB Circular A-21) as recommended by the NSF team. However, 2 CFR 220 (OMB Circular
A-21) does not apply to LBR because it is a department of the State of Louisiana, therefore 2
CFR 225 (OMB Circular A-87) applies. (See finding 1 in the report on internal controls and
compliance.)

OMB Circular A-133 Audit
The FY 2007 OMB Circular A-133 audit report for the state of Louisiana included a finding that
the LBR did not adequately monitor sub awardees on a U.S. Department of Education grant

                                                 64
award. However, according to the FY 2008 Single Audit this issue was resolved. In addition,
the FY 2008 Single Audit had a finding on the IT system for the State of Louisiana which affects
LBR and LSU. The State’s Division of Administration (DOA) had not performed internal audits
to monitor, assess, and report on the effectiveness of the state’s centralized information
technology (IT) controls. This finding was resolved according to the FY 2009 Single Audit.




                                              65
ATTACHMENT C – EXIT CONFERENCE
                                                                        ATTACHMENT C


EXIT CONFERENCE


We conducted an exit conference on January 19, 2011 with LBR. We discussed preliminary
findings and recommendations noted during the audit. Representing LBR were:

             Name                                         Title




Representing the National Science Foundation – Office of Inspector General was:

            Name                         Title

    Billy McCain           Audit Manager


Representing Foxx & Company were:

            Name                         Title




                                              66
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

           Email Hotline
           oig@nsf.gov

             Telephone
           703-292-7100



             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 67
